<html>
<title> - TRANSPORTATION, HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]



 
  TRANSPORTATION, HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2020

                              ----------                              


                       WEDNESDAY, MARCH 27, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:02 a.m. in room SD-192, Dirksen 
Senate Office Building, Hon. Susan Collins (chairman) 
presiding.
    Present: Senators Collins, Boozman, Capito, Hoeven, Daines, 
Reed, Murray, Durbin, Feinstein, Coons, Murphy, and Manchin.

                      DEPARTMENT OF TRANSPORTATION
                      

STATEMENT OF HON. ELAINE L. CHAO, SECRETARY


             opening statement of senator susan m. collins


    Senator Collins. Good morning. The Subcommittee will come 
to order.
    Today, I'm pleased to welcome Transportation Secretary 
Elaine Chao, who will testify on the President's fiscal year 
2020 Budget Request for the Department of Transportation and 
Related Agencies.
    I'm also pleased to be joined today by my friend and our 
Ranking Member, Senator Jack Reed.
    Before we hear from the Secretary on the Administration's 
Budget Request, I would first like to thank the members of the 
subcommittee, even though none of them is here at this point 
but I'm sure they will be joining us, for working together over 
the last few months to finish the fiscal year 2019 THUD 
Appropriations Bill.
    We actually got our work done on time but unfortunately due 
to other issues, it was held up.
    Thanks, however, to the previous two-year budget agreement, 
we were able to provide $87 billion for the Department of 
Transportation, an historic level of funding and a real down 
payment on our nation's infrastructure.
    However, we will soon begin work on the fiscal year 2020 
bill without any such budget agreement. If we do not reach an 
agreement on the discretionary caps for fiscal year 2020, the 
total funding available for non-Defense discretionary programs, 
such as the vital transportation programs that we will be 
discussing today, will fall by $55 billion.
    The impact of sequestration level funding would be 
devastating for our nation's infrastructure and housing 
programs as well as for many other critical programs.
    The Administration's 2020 Budget Request, unfortunately, 
does not address this cap. As a result, DOT's discretionary 
budget is cut by $5 billion from the fiscal year 2019-enacted 
levels.
    The budget request also fails to address the looming 
insolvency of the Highway Trust Fund and offers no path forward 
after the FAST Act expires at the end of fiscal year 2020.
    It is imperative that the Administration work with the 
authorizing committees to enact a long-term surface 
transportation bill that provides realistic funding for the 
Highway Trust Fund.
    I am, however, pleased that the Administration included 
funding for several critical infrastructure programs, including 
$1 billion for the popular BUILD Grants.
    Madam Secretary, I know that you have personally seen the 
success of the BUILD Program in communities both urban and 
rural, and I want to thank you for your advocacy for this 
significant funding.
    The request also proposes $2 billion for INFRA Grants for 
both large and small freight projects and $300 million for a 
competitive bridge program.
    This program would reward states that use innovative 
procurement practices to repair or replace rural bridges that 
are in poor condition.
    The request also includes funding levels consistent with 
the FAST Act for the Federal Motor Carrier Safety 
Administration and the National Highway Traffic Safety 
Administration.
    NHTSA's preliminary data for motor vehicle traffic 
fatalities in the first half of 2018 looked very promising with 
a 3 percent decrease compared to the same period the year 
before.
    Safety should and I know will remain the department's top 
priority and we encourage the department to continue its 
efforts to reduce this number further in the coming year.
    For the Maritime Administration, the budget request 
includes $205 million for a different smaller-capacity training 
ship in contrast to the $300 million provided for Maritime 
Academy ships in each of the last 2 years.
    I am deeply disappointed in this proposal which departs 
from the years of planning and design work that MARAD completed 
on the National Security Multi-Mission Vessel. This ship was 
designed to provide identical training vessels for our state 
maritime academies and building the same vessel for all 
academies is expected to achieve cost savings.
    This budget proposal would require MARAD to start from 
scratch in designing a brand-new ship and would be detrimental 
to the training needs at the Maine Maritime Academy which is 
next in line for a replacement ship. We followed MARAD's 
guidelines exactly and funded New York first, Massachusetts 
last year, and Maine is scheduled for this year, but with a far 
smaller and inferior ship provided in this budget.
    In aviation, the budget invests in safety and the 
efficiency of our nation's airspace. The request includes $3.3 
billion for facilities and equipment, an increase above the 
fiscal year 2019-enacted level, and the highest-ever provided 
by any Administration.
    These investments will help accelerate next gen programs 
that are already proving successful by reducing flight times 
and delays.
    Innovative programs, such as the ADSV, will allow aircraft 
to use precision satellite-based positioning instead of radars, 
a much-needed improvement.
    In addition, the request includes funding to ensure the 
safe integration of drones into the national airspace as well 
as to meet regulatory mandates.
    The budget proposes to establish a new Office of Innovation 
to deal effectively with the surge of new aviation technologies 
while allowing for continued innovation and safety.
    While the FAA continues to maintain the safest air traffic 
control system in the world, we are all too aware of the recent 
crashes of the Ethiopian Airlines Flight 302 and Lion Air 
Flight 610. Both crashes involved Boeing 737 Max aircraft and 
both crashed just minutes after takeoff in eerily similar 
circumstances.
    After seeing the satellite data from the Ethiopian Airlines 
crash, the FAA and the department decided to ground the 737 Max 
aircraft and the agency is now working closely with the NTSB on 
the crash investigation.
    We must await the results of this investigation prior to 
reaching conclusions about the causes of these crashes. 
However, these recent incidents have focused attention on FAA's 
aircraft certification process for Boeing 737 Max aircraft and 
on the training of pilots.
    I expect many of us have questions for the Secretary on 
FAA's relationship with Boeing and the Government's role in 
ensuring the safety of the traveling public.
    I commend the Secretary for requesting the Inspector 
General to initiate an audit of FAA's certification of the 737 
Max aircraft.
    Senator Reed and I have sent a letter to the Inspector 
General asking that the results of this critical audit be 
shared with us.
    Madam Secretary, again, I welcome you here today. I look 
forward to hearing your testimony, and I now turn to our 
Ranking Member, Senator Reed, for his opening statement.


                 opening statement of senator jack reed


    Senator Reed. Thank you, Chairman Collins.
    Let me again compliment you and your staff for working with 
me and my staff and the other committee members year after year 
to produce strong bipartisan bills that support our housing and 
transportation sectors. Thank you very much.
    Let me also join you in welcoming Secretary Chao. Madam 
Secretary, thank you for being here. I thank you for your 
leadership.
    As Congress begins to develop the 2020 appropriations, the 
reauthorization of our surface transportation programs and 
potentially a broader infrastructure package, I believe our 
2018 and 2019 THUD bill should be the baseline from which new 
transportation investments should grow.
    In the face of a proposed $68 billion cut in total non-
Defense funding, the top entrenched station escapes some of the 
damage in the President's budget request in comparison to other 
agencies.
    However, I think we can all agree that the request still 
falls short of addressing the severe infrastructure 
deficiencies we face as a nation and backslides from the 
investments we made in 2019.
    If we are to pass a THUD and the other 11 appropriations 
bills this year, we'll need to set aside the Administration's 
cuts and start with a new multiyear budget agreement that 
builds on the last bipartisan budget act. Such an agreement 
must provide additional funding to meet the needs of the nation 
as well as parity between Defense and non-Defense discretionary 
spending.
    I believe that such an agreement can be reached and the 
appropriations bills can move forward in regular order, 
provided that the Administration does not engage in the same 
kind of brinksmanship that resulted in the longest government 
shutdown in history this last winter.
    With respect to DOT's 2020 Request, I'm pleased to see some 
movement towards support for additional investment in transit. 
While the recommended funding levels are still woefully 
inadequate to support the 66 projects in the Capital Investment 
Grants pipeline, the request is an improvement from previous 
years.
    Nonetheless, too many other high-ranking projects will 
languish without a decision from the department. These delays 
result in uncertainty and unnecessary increased costs for state 
and local governments. DOT needs to move ahead.
    In spite of proposed cuts elsewhere at DOT, the budget 
preserves investments in FAA safety and other air traffic 
control systems. These are a basic form of safety in our flight 
system in the United States and, indeed, the model for the 
world.
    However, the fatal Lion and Ethiopian Air accidents have 
called into question FAA's certification practices, pilot 
training requirements, and the integration of new technologies.
    I know that you cannot discuss issues related to pending 
investigations, but these accidents require capital analysis of 
the technical failures and a reassessment of the relationship 
between the FAA and those businesses it regulates. Certainly 
this should occur before the department goes any further to 
execute expanded certification authorities.
    As I noted earlier, the 2018 and 2019 THUD bills provided a 
baseline from which we should expand transportation funding, 
but truthfully we need an even bolder investment in our roads, 
bridges, and transit systems in the next surface 
reauthorization bill. Small adjustments for inflation are a 
non-starter.
    We also need to look to the future and plan infrastructure 
projects that will withstand natural disasters and mitigate the 
effects of climate change. The anticipated impacts of rising 
sea levels in the Northeast Corridor alone stand to cripple the 
entire regional economy if we do not prepare now.
    And we must also recognize that infrastructure exists 
beyond transportation, from water systems to public school 
buildings. We cannot expect states and localities to shoulder 
these costs on their own nor can we expect tax incentives and 
private investments to support our national infrastructure plan 
that leaves all communities.
    Secretary Chao, thank you again for your service and for 
appearing before us today. I look forward to hearing your 
testimony and responses to our questions.
    Thank you, Chairman Collins.
    Senator Collins. Thank you very much, Senator Reed.
    Madam Secretary, we're delighted to welcome you today and 
look forward to your testimony.


                summary statement of hon. elaine l. chao


    Secretary Chao. Thank you, Chairman Collins, Ranking Member 
Reed, and Members of the Subcommittee, for the opportunity to 
meet today to discuss the President's fiscal year 2020 Budget 
Request for the Department of Transportation.
    But before I begin, let me emphasize that safety is always 
Number 1 at the Department of Transportation and a good day is 
when nothing bad happens.
    On March 10th, 2019, however, there was a terrible accident 
in Ethiopia involving a U.S. manufactured aircraft. Our hearts 
and condolences go out to the families of all those who 
perished. We all have a lot of important questions about this 
accident.
    As you may know, the Ethiopian Government is in charge of 
the crash accident investigation and the National 
Transportation Safety Board, NTSB, is the U.S. representative 
in the investigation, but I have taken two actions to help 
determine what happened and what can be improved at the FAA.
    First, I've asked the department's Inspector General to 
initiate an audit, to compile a detailed factual history of the 
activities that resulted in the certification of Boeing's 737 
Max 800 involved in the accident. This certification began on 
January 27th, 2012, and was certified March 8th, 2017.
    Second, on Monday, I announced the formation of a special 
advisory committee to provide independent impartial advice on 
ways to improve the FAA's safety oversight and certification 
processes.
    There will be hearings on this subject, including one this 
afternoon with Acting FAA Administrator Daniel Elwell, that 
will provide more details.
    I look forward to working with you and all concerned to 
help resolve key questions surrounding this tragedy.
    Now let me turn to the President's Budget Proposal which 
continues to emphasize the importance of addressing our 
nation's infrastructure needs using smart, effective, and 
modern methods that provide results and maximize resources.
    The President's budget requests a total of $84 billion to 
support transportation programs in fiscal year 2020. About 75 
percent of this request fully funds surface transportation for 
the fifth and final year of the FAST Act and FAA's authorized 
funding levels for the grants and aid for Airports Programs.
    These programs support infrastructure improvements that are 
essential to maintaining dependable transportation system that 
supports our country's growing economy.
    The remaining $21.4 billion of the request funds several 
high-priority investments and important reforms that will 
strengthen our programs while making them more effective.
    You will note that the fiscal year 2020 request is about 
$3.5 billion less than the recent fiscal year 2019 
appropriations but DOT's funding was increased in fiscal year 
2018 and fiscal year 2019 when the government-wide caps were 
increased as part of the recent spending deal.
    This was a one-time increase above the requested 
President's budget. So with this in mind, the department's 
programs tied very closely to fiscal year 2019-enacted 
appropriations with a handful of exceptions.
    For FAA, I'm pleased to note that the President's budget 
includes $1.4 billion for next gen projects and activities. 
This is the largest request in FAA history.
    The budget includes $203 million for unmanned aircraft 
initiatives, $1.6 million for the new Office of Innovation, and 
65 million for commercial space safety and operations.
    FAA's operations account is about $770 million less, as you 
noted, from the fiscal year 2019-enacted appropriations. 
However, this is a minor reduction when compared to the $10.3 
billion provided for this account and is still approximately 
$130 million above fiscal year 2018 levels.
    FAA's grants and aid programs, the (AIP) Airport 
Improvement Program does not include the additional $500 
million in discretionary funds provided in 2019. Again, there 
were many one-time increases which increased the comparison, 
and given the timing differences between the time that the 
President's budget was prepared and the actual passage of the 
budget deals, there were some misalignments of the timing, as 
well.
    The President's budget continues to fund the Federal 
Highway Administration at FAST Act levels and it also uses $300 
million of the remaining funds for a new competitive Bridge 
Program that focuses on improving our failing bridges.
    For transit, the fiscal year 2020 funding level for CIG, 
Capital Investment Grant, is $1.5 billion. This fully funds all 
existing projects that are ready to go and reserves $500 
million for new projects as they are ready to advance.
    This budget funds Amtrak at $1.5 billion in total and this 
fully funds Amtrak's needs based on traditional spending 
patterns and increases funding available for rail 
infrastructure and safety grants.
    This budget also proposes a new idea that will provide $550 
million in grants to support states in taking over 
responsibility for long distance services over a five-year 
period.
    Let me also mention MARAD's budget request provides $300 
million to fully fund the Maritime Security Program's 60 ships 
and an additional $205 million for the third new school ship.
    We want to work with you, Madam Chairman, on allowing the 
department to continue to replace the aging training ships 
currently being used at the state maritime academies.
    I look forward to working with all of you on these and 
other transportation issues over the coming year, and I'm 
pleased to answer any and all of your questions.
    Thank you.
    [The statement follows:]
               Prepared Statement of Hon. Elaine L. Chao
                              introduction
    Chairman Collins, Ranking Member Reed, and members of the 
Subcommittee, thank you for the opportunity to meet today to discuss 
the President's fiscal year 2020 Budget request for the Department of 
Transportation (DOT). The President's budget proposal--A Budget for A 
Better America--continues to emphasize the importance of addressing our 
Nation's infrastructure needs using smart, effective and modern methods 
that provide results and maximize our resources.
    The President's Budget requests a total of $84 billion to support 
transportation programs in fiscal year 2020. About 75 percent of this 
request fully funds surface transportation for the ``fifth'' and final 
year of the Fixing America's Surface Transportation (FAST) Act and the 
Federal Aviation Administration's authorized funding levels for the 
Grants-in-Aid for Airports program. These programs support 
infrastructure improvements that are critical to maintaining dependable 
transportation systems that support our growing economy.
    The remaining 25 percent of this request, or $21.4 billion, funds 
several high priority investments and important reforms that will 
strengthen our programs while making them more efficient. This portion 
of the budget is a $5.1 billion reduction from fiscal year 2019 enacted 
levels, because of the additional infrastructure investments the 
Congress committed to in the two-year Government-wide discretionary 
funding caps deal. When you deduct those temporary increases, this 
request provides a robust level for many of the Department's programs 
and tracks very closely to the fiscal year 2019 enacted appropriations.
                  comparing dot resources across years
    Some have noted that the President's fiscal year 2020 Budget 
request is about 20 percent less than the fiscal year 2019 enacted 
appropriations for discretionary programs. While this is technically 
true for a relatively small subset of the budget, it is misleading and 
does not tell the whole story.There are two important points to 
consider.
    First, unlike most domestic programs, DOT's mandatory programs are 
not traditional entitlements. Instead, they result from contract 
authority that is provided for infrastructure transportation programs. 
However, these levels are not a given. Every year the Executive Branch 
and this subcommittee determine what the annual obligation limit should 
be that ultimately controls the level of investment. With this in mind, 
a comparison of the Department's overall funding of $84 million 
provides a more representative measure for comparison and reflects only 
a 4 percent reduction.
    Timing also plays a critical role in developing budgets. When the 
President's fiscal year 2020 Budget was being developed, we did not 
have a final fiscal year 2019 Appropriation and were operating under a 
long-term Continuing Resolution. In the absence of a fiscal year 2019 
Enacted Appropriation, the Administration relied on its own fiscal year 
2019 President's Budget request as the basis for the fiscal year 2020 
President's Budget decisions. When we compare the President's Budget 
request for fiscal year 2019 and fiscal year 2020, the fiscal year 2020 
budget provides an overall 8.9 percent increase. Further, compared to 
the fiscal year 2017 enacted level, prior to the budget cap deal 
increases, the overall increase for fiscal year 2020 is almost 8 
percent. This reflects the Administration's strong support for funding 
transportation infrastructure investments even as other portions of the 
President's Budget were targeted for reductions.
                   modernizing our nation's airspace
    The President's Budget requests $17.1 billion to support the 
important work of the Federal Aviation Administration (FAA). The FAA 
manages our Nation's airspace and directs the safe transportation of 1 
billion passengers and 25 million tons of cargo each year. At the same 
time, the FAA is continually advancing new technologies and innovations 
that improve its operations and help the Agency keep pace with 
increasing demand for reliable air services. The FAA's signature 
NextGen program is focused on integrating these critical safety and 
innovation technologies into the National Airspace System using the 
resources across its accounts.
    The President's request acknowledges the importance of this program 
by providing $1.4 billion in resources specifically dedicated to 
NextGen initiatives. This is the highest request for NextGen in the 
Department's history. The President's Budget funds the FAA's overall 
Operations at $10.3 billion. While this level is $70 million below 
fiscal year 2019 enacted levels, this is only a slight reduction 
overall and certainly sufficient to meet the Agency's needs. At the 
same time, the FAA's Facilities and Equipment program received $3.3 
billion--a nearly $300 million increase. These funds will be focused on 
modernizing FAA's infrastructure to improve safety and reduce flight 
delays.
            improving surface transportation infrastructure
    Consistent with previous years and the Administration's 
infrastructure improvement priorities, the President's Budget funds the 
Federal Highway Administration at the level authorized by the FAST Act 
to support highway infrastructure improvements and highway safety 
programs. The President's request does not continue the $3.3 billion in 
funding for the discretionary Highway Infrastructure Program, which was 
new in fiscal year 2018. Instead, it provides substantial additional 
resources to successful competitive programs. These include $1 billion 
to the Infrastructure for Rebuilding America (INFRA) Grant program to 
supplement the $1 billion provided by the FAST Act for a total of $2 
billion in INFRA Grants; and $1 billion to the Better Utilizing 
Investments to Leverage Development (BUILD) Grant program. The INFRA 
and BUILD programs have been effective in delivering high returns on 
investment by encouraging local contributions and partnerships with the 
private sector. Another $300 million is provided for the innovative 
Competitive Bridge Program which encourages States to replace and 
repair deteriorating bridges cost effectively through project bundling. 
In addition, the fiscal year 2020 request includes $500 million to 
improve the Nation's aging transit assets and infrastructure.
               transit's capital investment grant program
    The Federal Transit Administration's Capital Investment Grant 
Program supports the construction of new transit, commuter rail, light 
rail, and bus rapid transit projects. The Administration continues to 
encourage increased local contributions in the funding of transit 
projects. The President's Budget provides $1.0 billion to fund the 
current portfolio of capital investment projects with signed full 
funding grant agreements at the time the Budget was developed. In 
addition, another $500 million is provided for new projects in the 
program pipeline as they become ready.
           investing in emerging technologies and innovation
    Every day, Americans wake up to new and advanced technological 
improvements that are changing the way we live, work and enjoy life. 
Technology is also rapidly changing transportation. The Department has 
a responsibility to ensure that new transportation systems are 
integrated into the overall transportation network in a safe and 
prudent way.
    The President's Budget request includes nearly $300 million to 
address emerging technologies and innovation. This includes $203 
million for unmanned aircraft systems which will be integrated into the 
National Airspace, and a new Office of Innovation within the FAA to 
focus on integration issues resulting from the latest emerging 
technologies. Another $25.6 million is requested to protect the public 
during take-off and reentry of Commercial Space launches.
    A total of $19.2 million is also requested in the National Highway 
Traffic Safety Administration's budget to oversee the introduction of 
automated driving systems on our Nation's highways as this technology 
continues to mature.
                             amtrak reforms
    The President's Budget request proposes reforms to Amtrak that 
would provide efficiencies and reduce costs. Amtrak's new leadership 
team has been making strides in implementing practical and effective 
cost saving measures while maintaining quality service. The President's 
Budget funds Amtrak at nearly $1.5 billion in total. The Northeast 
Corridor is funded at $325 million which funds Amtrak's needs based on 
traditional spending patterns. Further, the President's Budget includes 
funding available for rail infrastructure and safety grants--a new 
approach from previous requests.
    The President's Budget includes a proposal to reform the way 
Amtrak's long-distance routes are managed. These routes are currently 
fully funded by Federal dollars and account for the majority of the 
railroad's operating losses. DOT will help lead the way on a new 
vision, working with stakeholders to develop a rationalized network to 
provide better, more cost-efficient service. This modernized network 
will focus trains on shorter distance routes between promising city 
pairs, while providing robust intercity bus service to currently 
underserved rural areas via partnership between Amtrak and bus 
operators.
    At the same time, the Department understands that many States and 
communities may not have the resources to assume immediate financial 
responsibility for these services. With this in mind, the President's 
Budget includes $550 million in transitional grants that would assist 
States in taking on the management of these newly created State-
supported routes. The grants would support the costs of these routes in 
fiscal year 2020 and would phase down and out over a five-year period.
     supporting the training needs of the state maritime academies
    Along with the U.S. Merchant Marine Academy, the State Maritime 
Academies provide the education and training needed to successfully 
support the Nation's needs for qualified and experienced merchant 
mariners. The Academies are currently operating with a fleet of 
training ships that are either at, or approaching, the end of their 
useful service life. Funding for the two oldest vessels is already 
secured and plans are underway to build replacements. The President's 
Budget includes $205 million for a third training ship to further this 
effort.
    Thank you again, for the opportunity to appear before you today to 
discuss the President's fiscal year 2020 Budget. I will be happy to 
answer your questions.

    Senator Collins. Thank you very much, Secretary Chao.
    When I look at the news reports on the two crashes 
involving the Boeing 737 Max aircraft, two issues keep arising.
    One is the adequacy of pilot training and the second is the 
delegation, the Organization Delegation Authority that allows 
the manufacturer to play a key role in certifying safety 
management systems.
    I know that you have investigations ongoing and I commend 
you for asking the Inspector General to audit the system, but 
I'd like to ask you just a couple of questions in that area, to 
the extent that you are able to comment.
    According to recent news reports, FAA management may not 
have been aware of the role that was played by the Maneuvering 
Characteristics Augmentation System or MCAS software, and as a 
result did not require simulator training for pilots as part of 
the certification process.
    First of all, is that accurate? Do you know whether or not 
the agency required additional training to ensure that pilots 
were aware fully of the MCAS System and how to override it 
using the trim procedure?
    Secretary Chao. The pilot training would have been part of 
the certification process. This occurred on January 12th, 2012, 
and the certification ended on March 7th, 2017.
    So that is a question that the IG investigation hopefully 
will provide as well as that of the special committee that I 
have set up to look at all of this.
    Senator Collins. Let's talk about the broader issue of the 
cooperative relationship that the FAA has with manufacturers 
under the Organization Delegation Authorization, the ODA 
Program, as it's referred to.
    It seems to me that is an important aspect of FAA's Safety 
Management System. It can allow for increased transparency and 
FAA has limited resources. So these cooperative relationships, 
if they work appropriately, can help improve safety and stretch 
the ability of FAA to ensure the safety of our aircraft.
    But some have expressed the concern that the use of the ODA 
to accelerate the commercial aims of Boeing or another 
manufacturer sacrifices potentially the safety of the traveling 
public.
    Can you give us some insight into how that system works and 
why it actually does not in any way undermine what I know is 
your top priority, which is safety?
    Secretary Chao. This practice of involving others who are 
involved in the building of an actual plane has dated back to 
the 1920s. So this is not a new procedure. It has been expanded 
over the years and most recently in the FAA Reauthorization Act 
that was passed in October 2018 on a bipartisan basis. More 
authority was given to the FAA to work with those who build the 
planes, who actually know what is going on in this process.
    The FAA is the one that certifies. There are set procedures 
of safety standards that an airline manufacturer must meet and 
they go according to this prearranged/prespecified set of 
criteria and then they would say ``we have done this, we have 
done that, we have done this.''
    It is, of course, subject to oversight and supervision by 
the FAA because the FAA does not build planes, they certify. 
But this method of having the manufacturer also be involved in 
looking at these standards is really necessary because, once 
again, the FAA cannot do it on their own. They need to have the 
input from the manufacturer.
    Having said that, I am, of course, concerned about any 
allegations of coziness with any company or manufacturer. The 
FAA is a professional organization. There are 44,000 people 
working at the FAA whose main mission every day is to ensure 
the safety of our traveling public. But these questions, when 
they arise, if they arise, are troubling because we should have 
absolute confidence in the regulators that they are certifying 
properly. And so that is why, once again, the IG investigation 
hopefully, along with the special committee that I have set up, 
will yield some answers.
    Senator Collins. Thank you very much.
    Senator Reed.
    Senator Reed. Well, thank you, Madam Chairman, and thank 
you, Madam Secretary.
    I want to follow a line of questioning that the Chairman 
started.
    How long did it take for Boeing to earn its ODA status and 
how many people did it have dedicated to the ODA process?
    Secretary Chao. They build a lot of planes. So I'm 
speculating a bit here. It's been an ongoing process not only 
with Boeing, it's with whoever is building the airplane, big or 
small. This is a practice that's been, you know, decades in the 
making. There are about 400 people, I think, that are involved 
in this.
    Senator Reed. Thank you. And again this touches on one of 
the concerns you just expressed, but to what extent are ODA 
staff at Boeing or at other enterprises awarded incentive 
bonuses if they meet company-established certification 
deadlines?
    Are there financial incentives that may make decisions more 
difficult in terms of technical aspects?
    Secretary Chao. I'm not able to answer that question.
    Senator Reed. Is that something that the IG would pursue?
    Secretary Chao. Certainly. And if you suggest, we will do 
that.
    Senator Reed. Thank you. How many FAA personnel work on 
some aspect of Boeing 737 Max 8 aircraft certification? Do you 
have an idea?
    Secretary Chao. I think just on the certification, it's 
more than 400, but the whole FAA is involved. If it is air 
traffic control, that's about, you know, 15,000 air traffic 
controllers.
    Senator Reed. I would assume, and again this is an 
assumption, that there was a team at Boeing that was focused 
almost exclusively on the 737 Max project.
    Secretary Chao. Yeah. I think it was about 400, as I 
mentioned.
    Senator Reed. 400 versus a number that you'll provide us in 
terms of the ODA personnel at Boeing. So we'll get a rough idea 
of----
    Secretary Chao. I do not know how many at Boeing.
    Senator Reed. One of the issues is, and this, I think, I 
hope you're going to pursue in your investigations, is just the 
span of control, the ability of limited number of FAA to 
actually effectively involve themselves with the Boeing 
personnel on this case and that's an issue I hope you can get 
back to us on.
    Secretary Chao. I share your concern on that, as well.
    Senator Reed. Thank you, Madam Secretary. One of the 
things, too, is across all of our Federal agencies, we have 
challenges recruiting very talented technologists because of 
the competition with private enterprise.
    So what is the FAA doing to address this challenge, and do 
you have the necessary personnel with the right skill sets? I 
mean, there's one possibility that you could have had very 
well-meaning and very well-trained people there but for these 
new, very sophisticated systems, they didn't have the same 
level of expertise as their counterparts. So, by default, they 
had to essentially agree even if there were questions.
    So how are you going to address this challenge of getting 
the very best people, technologists, involved?
    Secretary Chao. I think the FAA's pretty experienced. 
Again, they don't build airplanes, which is why this ODA system 
was initially put in place. We have very experienced 
professionals.
    Let me also answer your previous question.
    Senator Reed. Yes.
    Secretary Chao. The Boeing ODA process took about two years 
and there are 1,461 Boeing employees working on the ODA.
    Senator Reed. And you have about 400 FAA people involved 
directly in that program roughly?
    Secretary Chao. Right.
    Senator Reed. Thank you. There was discussion after the 
Lion Air accident, not only discussion but activity to make a 
modification, a software patch, if you will, with respect to 
lessons learned unfortunately from the Lion Air crash.
    What are those modifications intended to achieve and why 
was the aircraft allowed to fly in the meantime if there was a 
recognition that you had to fix something and then the aircraft 
was still allowed to fly? How was that decision made?
    Secretary Chao. You know, the FAA is a very professional 
fact-based organization and they don't make decisions that are 
too hasty. They take great pride in ensuring, again, the safety 
of the entire world's international travelers.
    The Americans have always been the gold standard for 
aviation safety and it is FAA who has built that reputation 
over time.
    Again, they're very fact-based and when the Lion Air 610 
crash occurred, they immediately issued an Emergency 
Airworthiness Directive alerting the entire international 
community to this problem that they saw, and to be careful and 
to know how to react.
    Then Boeing began to update and look at their software and 
that was the sequence of events.
    I hope I may also add one other thing.
    Senator Reed. Yes, ma'am.
    Secretary Chao. On the initial point about pilot training. 
I don't want to say too much about that because it's really 
important that we remember who is in charge of this 
investigation.
    This is an international investigation and it has 
additional complications, diplomacy issues, and we want to make 
sure that we don't say anything that is hastily said, that we 
are careful in our words, because again we want to show respect 
to the Ethiopian Government and not jump to any conclusions at 
this point because the Ethiopian Government is the authority 
that controls the crash investigation.
    They can disinvite anybody they would like.
    Senator Reed. Yes, ma'am.
    Secretary Chao. Thank you.
    Senator Reed. Finally, I'm under the impression that there 
are additional safety sensors that could have been purchased by 
the airlines and some airlines did and some airlines did not.
    Do you intend to require Boeing to retrofit all the 
aircraft with the full suite of safety sensors in order to 
provide maximum assurances to the public?
    Secretary Chao. I don't think we're there yet, but it is 
very questionable, if these were safety-oriented additions, why 
they were not part of the required template of measures that 
should go into an airplane. So this is one of the questions 
which again the IG hopefully will help us answer and also the 
special committee.
    Senator Reed. Thank you very much, Madam Secretary.
    Senator Collins. Thank you, Senator Reed.
    Senator Hoeven.
    Senator Hoeven. Madam Chairman, I'll defer for just a 
minute to look at my notes. Thanks.
    Senator Collins. Senator Feinstein.
    Senator Feinstein. Welcome, Madam Secretary, and thank you 
very much for your help with CalTran. It's very much 
appreciated, and it certainly gave it a good start back.
    I am looking at preparing a bill that would require key 
safety equipment be included in basic plane sale costs. How 
would you look upon that kind of legislation?
    Secretary Chao. As I mentioned to Ranking Member Reed, we 
would like to take a look at what the studies what the audit 
and the special committee recommend. But as I've said, I think 
it's troubling that if indeed it was a safety feature that it 
was not included.
    Senator Feinstein. And I can see many of the exigencies 
that go into a company's evaluation of what they buy above the 
sales cost and a rationalization as to why this or that which 
is safety equipment would not be necessary and to have two 
planes go down allegedly from the same problem within a limited 
period of time with a lot of people aboard says we're doing 
something wrong to me.
    So I feel very strongly that key safety equipment should be 
included in the basic sale price of a plane, and I believe that 
Americans would agree with that.
    So I probably will go ahead and I would like to consult 
with you on that as we move ahead.
    Secretary Chao. Of course.
    Senator Feinstein. Let me talk to you for a moment about 
one San Francisco project, which is BART, Bay Area Transit. It 
has a core capacity to increase capacity through the tube by 45 
percent. It's been stalled for more than a year waiting for 
approval from the department to enter the engineering phase of 
administrative review.
    The project was given a high rating by the FTA, the only 
project in the pipeline to receive such a strong commendation. 
However, the delays risk more than 20 million in costs to 
maintain their contract bids and up to 5 percent in 
construction costs escalation a year.
    When can we expect administrative approval of the BART 
project?
    Secretary Chao. Currently, there are three actions that are 
still pending, and I used to live in San Francisco and so I 
used to take it. Number 1, there's a sole source procurement 
request for the rail cars that has to be worked out because 
there would likely be disagreement. Although I say that, we are 
actually in productive and good discussions with BART right 
now.
    The second, they want a letter of no prejudice and to 
advance to engineering.
    With all three of them, there are still issues. We're not 
holding them back, but we need to talk more, especially above 
the sole source procurement initiative.
    Senator Feinstein. Well, I'd like to sit down with you and 
go over and maybe even have the company, BART, there, so that 
we can all hear the same thing.
    Secretary Chao. Of course.
    Senator Feinstein. I'd appreciate that.
    Secretary Chao. I think we're actually working well on it. 
So I don't think----
    Senator Feinstein. You think it can get solved?
    Secretary Chao. I hope so.
    Senator Feinstein. Well, I do, too. The second one is Los 
Angeles and that's Phase 3 of L.A. Metro's Westside Purple Line 
Extension.
    The city is urgently trying to finish it in time for the 
2028 Olympics and the project's administrative approval to 
enter the engineering phase was delayed last year, which cost 
almost $300 million in cost escalation, and they're going to 
face a further cost escalation if they're not approved this 
spring.
    Congress has already appropriated $200 million toward the 
project's total request of $1.3 billion. The city, county, and 
state have committed to more than $2.1 billion.
    Madam Secretary, can we expect the department to release 
the funding that Congress has provided and approved the full 
funding grant agreement for Los Angeles?
    Secretary Chao. I want to--yes, of course. The answer is 
yes, but I want to clarify something. There seems to be still 
the thinking that we're holding back. We're really not holding 
back.
    In fiscal year 2017, since January 2017, we've awarded 13 
CIG grants representing $3.3 billion. And just in this year 
alone, we've advanced 15 projects in just CIG project 
development. So many times, we are not the holdup.
    Senator Feinstein. So what is?
    Secretary Chao. Every single project may be different. We 
fully funded all contracts that have been signed and in fact we 
are also putting $500 million extra for new starts.
    So each one of these projects, and we'll be more than glad 
to go through them with you, it's a lengthy process. These are 
billions of dollars. So they have to go from one stage to 
another, meet certain criteria before they can go to the other.
    For example, one other thing about the three issues for 
BART. The FTA has to take a look at all three requests in 
unison.
    Senator Feinstein. For L.A. and BART together?
    Secretary Chao. Oh, no. That's just BART.
    Senator Feinstein. Okay.
    Secretary Chao. So the three actions that I mentioned 
before, the sole source procurement request, a letter of no 
prejudice request, and the request to enter engineering, all 
three of them, I've been told, have to be considered in unison 
and so that's part of the reason for the delay, but we are in 
discussion with BART. It's just a matter of working out some of 
these issues.
    On the L.A. issue, that is actually a bit more complicated. 
But it's not because we're holding back. Again, we have fully 
funded all existing contracts and we're going ahead with them. 
We have funded 500 million for new starts.
    So many times when these projects don't go forward, it's 
because they're not meeting some of the criteria.
    Senator Feinstein. I'd like to straighten that out.
    Secretary Chao. Okay.
    Senator Feinstein. Because, this is a big deal.
    Secretary Chao. Sure. I understand.
    Senator Feinstein. Would you be willing, if I brought the 
people back, to sit down with us and we'll go over it.
    Secretary Chao. Sure.
    Senator Feinstein. And see what we can do because there's a 
300 million cost escalation now and if there are problems, we 
need to solve them or it's only going to get worse and then the 
Olympics will be in real trouble.
    Secretary Chao. Which is why, again, this Administration 
has worked so hard on permitting reform. Because when projects 
are delayed, the costs increase exponentially which is no good 
for anybody. So we're very concerned about that.
    Senator Feinstein. Well, I will set that up.
    Secretary Chao. Okay.
    Senator Feinstein. I thank you for doing that. Thank you, 
Madam Chairman.
    Senator Collins. Thank you, Senator.
    Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chairman.
    Greetings, Secretary Chao. Good to see you again. Thanks 
for your visits to our state and all the work that you do.
    One of the things that I'm working on is in regard to 
hauling livestock. It's a huge issue, transporting livestock by 
truck for our ranchers, farmers, and for the last 2 years, this 
committee has delayed implementation of the Electronic Logging 
Devices for that reason, because, you know, when you're hauling 
livestock, cattle, or whatever it may be, it's different than 
hauling other products.
    I mean, you've got to take care of the animals and so forth 
and so it does require more flexibility and it is going to 
require a different set of regulations and requirements, if you 
will, in order to do it safely and humanely and so forth.
    So we have delayed its implementation and in the meantime, 
Senator Bennett and myself on a bipartisan basis have 
introduced the Modernizing Agricultural Transportation Act, and 
I think we're up to about, I don't know, 10-12 co-sponsors and 
we're bringing them on a bipartisan way. So it's all 
bipartisan, and we hope to get quite a few sponsors because 
essentially what it does, it's a solution to this issue.
    It requires that we put together experts in agriculture and 
transportation and labor and so forth and actually do a study 
of, you know, what is the right solution in this area and then 
that study has to be back to you, to DOT, within a year and 
then I think you've got, I don't know, 60 or 90 days in order 
to implement, you know, propose a rule or regulation to address 
it.
    So it's really an effort in a collaborative way to address 
the issue as far as electronic logging devices and hauling 
livestock and live product.
    I guess, give me your thoughts now that I've described it 
and how we can work on this together to try to get a good 
solution in this area, if you would.
    Secretary Chao. Well, this is what happens when there's a 
one-size-fits-all solution.
    Senator Hoeven. Right.
    Secretary Chao. It doesn't work across the country because 
our country is so diverse. With electronic logging devices, 
that created hardship for small truckers and it also created a 
hardship for agricultural interests, farmers, people who are 
hauling in rural areas.
    So we were very cognizant of that. We worked with all 
Senators who are concerned about that, but the issue actually, 
as it turned out, is not the electronic logging device. It's 
the hour of service. So we are actually looking at that, as 
well, on a bipartisan basis and we hope to come out with some 
conclusions on that. But again, we're very much aware of the 
hardship that these inflexible rules have placed on rural and 
agricultural interests.
    Senator Hoeven. Are you willing to work with us on our 
legislation to address it?
    Secretary Chao. Of course.
    Senator Hoeven. Thanks, Secretary. Also, along with Senator 
Wyden, I have legislation called The Move America Program, and 
essentially it provides two things. It provides tax-exempt 
financing, tax-exempt bonds, and it provides investment tax 
credit, and it really lets the states drive, you know, how that 
investment is made.
    It allocates out to the states the ability to issue tax-
exempt bonds and investment tax credit for the purpose of 
attracting private investment into infrastructure funding and 
so the whole idea is, as we work toward getting an 
infrastructure bill and this will be infrastructure obviously 
of all kinds, roads, bridges, broadband, everything, this 
really leverages the Federal dollar investment by attracting 
private investment to the tune of $226 billion.
    And so tell me your thoughts on including that in an 
infrastructure package and working to draw that private 
investment and utilizing something like Move America to help us 
get more infrastructure funding out there in a way that 
leverages, you know, the Federal tax dollar.
    Secretary Chao. Well, the President's infrastructure bill, 
which was sent to the Congress last February 12th, 2018, wanted 
to leverage $200 billion in Federal funding to a trillion and 
even $1.5 trillion in overall investments.
    Unfortunately, that bill just didn't have enough votes, but 
I think there is a lack of understanding of the leveraging 
impact of allowing private sector pension funds, for example, 
or endowment funds to be able to participate in the financing 
of public infrastructure.
    These are long-term financial investments--these are 
pension funds, endowment funds. They look for long-term 
investments and they especially like collateral that doesn't 
walk away. So they're actually ideal to help in the financing 
of public infrastructure, understanding that sometimes in Rural 
America that doesn't work.
    But there are 26 states that have some kind of limitations 
on allowing the private sector to participate in the financing 
of public infrastructure and that's really a shame because this 
is a pool of money that is very long term. It's steady and 
really should be tapped.
    Senator Hoeven. Yeah. And we need it to get to the kind of 
scale we want in an infrastructure package.
    Final, just you've been out to see all the things we're 
doing on UAS, unmanned aerial systems, and I want to thank you 
so much for the partnership that we have between our test sites 
and other test sites through the FAA and just any other 
thoughts?
    You've been such a champion and such a supporter, whether 
it's the UAS Integrated Pilot Program or now the Unmanned 
Traffic Management Pilot Program where we are working with FAA 
and NASA, tremendous, just tremendous. I thank you for your 
strong leadership on it.
    Any other thoughts on top of the mind on UAS that we should 
be tuned in as we work this phenomenal partnership with you?
    Secretary Chao. Well, I want to commend you for your 
leadership when you were Governor and then obviously now as 
Senator, making North Dakota the place to be for drones and 
autonomous vehicles.
    Most recently, the department issued three Notices of 
Proposed Rulemakings which would allow pilot programs to be 
studied for potential waivers of drone activity over the heads 
of people at night and outside the line of sight. These are 
important pilot programs which will give us a lot of 
information about the operation of drones and different 
automated driving systems in different climates, different 
terrains, and also obviously under different conditions.
    I'm combining both automated vehicles and the drones, but 
your state is terrific at all of that and so we hope to learn a 
lot. That would be very helpful for the future.
    Senator Hoeven. Right. Well, thanks for your leadership on 
it and for coming out and seeing what we're doing. I really 
appreciate it.
    Senator Collins. Senator Murphy.
    Senator Murphy. I'm going to defer to Senator Manchin.
    Senator Collins. Senator Manchin.
    Senator Manchin. Two very quick questions. First of all, 
how are we funding rural highway funding, Madam Secretary?
    In West Virginia, we have the seventh largest road system, 
we're responsible for it, and I think my question would be 
consider increasing funding for existing programs, like the 
Surface Transportation Block Grants.
    ARC used to handle for Appalachian corridors. We're in 
desperate need. We have a deteriorating system that the state 
cannot stay ahead of us in these rural areas, and I don't know 
if it's been brought to your attention, if there's a way that 
you can help us, but there's a way that we used to get help 
from ARC, Appalachian Regional Commission (A-R-C), and also 
from the block grants, transportation block grants.
    Secretary Chao. Senator, I hear this a lot from the other 
Senator of West Virginia, as well.
    Senator Manchin. You're hearing it from both of us. We hit 
the same potholes. It's not a Democratic or Republican pothole.
    Secretary Chao. No. So this is an issue that's----
    Senator Manchin. We need help. We really need help, ma'am. 
We're not--I mean, it's just the bottom line. It's critical 
mass right now.
    My last--go ahead. We just need your help.
    Secretary Chao. I think for this----
    Senator Manchin. Maybe together we can come meet with you 
and show you the maps where we're having all the problems.
    Secretary Chao. Yes, of course. I think Rural America needs 
to be paid attention to.
    Senator Manchin. Right.
    Secretary Chao. In fact, Rural America has 
disproportionately high number of traffic accidents. So we are 
paying attention to Rural America. It's not preferential 
treatment but it's a matter of equity and fair play.
    Senator Manchin. Madam Secretary, one question I get asked 
about the 737 Max 8, as you've been asked many questions, why 
it took us so long to ground that plane when we have been the 
leader in the FAA and we set the standard, gold standard. It 
looks like we're following now the rest of the world because 
I'm a pilot, also. I knew something was wrong. You can't have 
that type of angle of attack not being put on as optional 
equipment. It's just wrong.
    So I don't know how that was made or why we waited so long. 
That would be my----
    Secretary Chao. Well, thank you for asking that question. 
It's an important one, and I had mentioned it in my opening 
remarks.
    Senator Manchin. I know you did.
    Secretary Chao. That's fine. I've said that a good day at 
the Department of Transportation is when nothing bad happens 
and on March 10th, Sunday, something bad happened with an 
American-manufactured aircraft.
    Senator Manchin. Sure.
    Secretary Chao. At the time, FAA did not have any 
information which mandated or indicated that grounding of the 
aircraft, 737 Max 800s, would have to occur.
    Senator Manchin. Well, that plane lost the confidence of 
the American traveling public because there were parents flying 
and their kids that didn't know what plane they were flying on. 
I mean, it just should--I'm just saying you don't have to 
reiterate.
    Secretary Chao. No.
    Senator Manchin. I just hope that we react quicker the next 
time.
    Secretary Chao. Well, that's an issue that I wanted to 
explain. Because the FAA is a fact-based organization, and 
based on the information that everyone had at that time, March 
10th, March 11th, March 12th, there was no factual basis upon 
which to ground the planes.
    So, conversely, if you don't have the factual basis upon 
which to ground a plane, how do you unground the plane?
    Senator Manchin. Let me just say this to you. All your 
professionals, and I'm going to get out of here because I'm--
make sure your professionals are looking. If there are options 
on a plane that deal with safety, there is a problem. If that's 
an optional cost that deals with safety, like the angle of 
attack, there's a big problem. That should be--every one of 
your total professionals should be looking at options that 
they're putting on a plane that should be on it mandatory from 
the factory if it's about safety.
    Thank you, Madam Chairman.
    Secretary Chao. Well, Senator Feinstein brought that up, as 
well, and so we said we will work on that.
    Senator Collins. Thank you, Senator.
    Secretary Chao. May I? This is actually pretty important.
    So what happened is that on March 10th, March 11th, March 
18th, even as countries were shutting down or making decisions 
about the 737 800s, the FAA did not feel that they had any 
information which would warrant the grounding.
    What happened on the morning of March 13th, Wednesday, are 
the appearance of two additional pieces of informations which 
changed the FAA's analysis of the situation, plus the third 
thing about the black box. So let me go into that.
    Number 1. The FAA received satellite information that it 
was finally able to decipher. The information was very raw. It 
could not be read very well. So it took the FAA that morning of 
the 13th to enhance the information.
    It was the first three minutes of the flight of Ethiopian 
Air 302 and it showed similarities to what happened with Lion 
Air. That was the first time there was evidence, factual 
evidence on what happened.
    Number 2. Without saying very much, at the crash site in 
Ethiopia, there was found physical evidence that seemed to 
correspond to the physical evidence of Lion Air 610.
    So those two additional facts, plus the fact that the FAA 
thought that black box would arrive sooner.
    Because this is a much more complicated crash investigation 
involving international interests, the initial assessment as to 
when the information from the black box would be available was 
not as quickly as originally thought.
    So with those three factors, Air, based on solid evidence 
that seemed to indicate some similarity, the FAA decided and 
made the decision to ground the 737 Max 800s and 900s.
    Thank you.
    Senator Collins. Thank you.
    Senator Capito.
    Senator Capito. Thank you, Madam Chair, and I want to thank 
the Secretary for being here today and for everything, 
particularly like to thank for the two BUILD Grants that we 
were able to secure in West Virginia at $20 million each.
    One of these is Corridor H, which is a huge driver of 
economic development in through the central part of our state, 
and when it connects, it will better connect us to the Mid-
Atlantic and we're excited about that.
    I would like to ask you, where do you see, after just 
having your first round of BUILD Grants or maybe this is the 
second round, where do you see that program going and how is 
that effectively treated in your budget?
    Secretary Chao. Well, we have increased the BUILD Grant and 
INFRA Grant in every request in the President's budget.
    Obviously it's very popular with members of Congress and so 
we will be supportive, but one of our challenges, I will have 
to say, is that it's a lot of money and we have very short 
timelines for turning it around.
    I know that everyone is anxious to receive these grants, 
but if we get criticized for not meeting some targeted 
deadlines, I hope that people will realize that it's not due to 
lack of effort on our part but because the deadlines are very 
tight and there's billions of dollars going out.
    Senator Capito. Would you say that's a highly-competitive 
program that you have to turn a lot of people away?
    Secretary Chao. It's very, very competitive.
    Senator Capito. Right.
    Secretary Chao. I congratulate the winners by saying it's 
almost one in 10, very competitive.
    Senator Capito. Right. Well, thank you.
    Secretary Chao. One in 11.
    Senator Capito. We're glad to be one of those one in 10 
twice.
    The budget request also cancels $210 million in unobligated 
balances for the Appalachian Development Highway System and 
it's certainly true that some states have accrued large 
unobligated balances in this account but several states, like 
West Virginia, are making good faith efforts to finish those 
final stretches. Corridor H is that final stretch.
    I'd like to know, has the department considered 
reallocating those funds to states that are actively involved 
in a viable construction completion plan rather than have it 
sit in the states that are not moving forward on their projects 
or having it accrue to--you know, just keep accruing at the 
state level rather than rescinding it, reallocating it to 
states like ours that still have a project that we're actively 
pursuing?
    Secretary Chao. We can't do that. That would require 
legislative action.
    Senator Capito. We're working on that. Let's see. The other 
question I had is on the (TIFIA) Transportation Infrastructure 
Finance and Innovation Act Program. The budget request is $300 
million, which is the authorized limit for the TIFIA Program 
again this year. At the end of fiscal year 2018, the department 
stated that TIFIA had a $1.65 billion in unobligated budget 
authority.
    Where does the unobligated budget authority stand now after 
this appropriations of $300 million? Is the money moving 
quicker out of there or why is it still unobligated?
    Secretary Chao. It's $1.9 billion unobligated authority.
    Senator Capito. Unobligated.
    Secretary Chao. You know, we continue to make these loans. 
In 2017, 11 loans were made, totaling $4.1 billion, and in 
fiscal year 2019, three loans were made, totaling $1.3 billion.
    So, again, we're not holding these up, but these are 
complicated multimillion dollar projects that include many 
other parties and stakeholders, as well as state and local 
governments, municipalities, metropolitan planning, regional 
planning authorities.
    Senator Capito. Right.
    Secretary Chao. So it's very complicated project financing 
and it requires obviously a great deal of work, but we're not 
slowing it down.
    Senator Capito. So let me ask this question a different 
way. Is TIFIA the reason we have unobligated balances, over a 
billion dollars, close to $2 billion now, is the process too 
complicated for certain areas to be able to make this relevant 
to projects in their rural states and other states?
    Secretary Chao. Well, I've been very concerned about rural 
projects because even though I've lived in California and New 
York, I've also lived in Rural America. I understand the 
particular challenges with Rural America and that's why I've 
initiated the Rural Projects Initiative where we hope once 
again that, Number 1, Rural America understands that this pot 
of money is available and understands how to apply for it. We 
cannot guarantee outcomes.
    Senator Capito. Right.
    Secretary Chao. But we can certainly let people know, 
states and localities know that this is available for Rural 
America.
    Senator Capito. All right. Well, I look forward to working 
with you on that.
    Thank you so much.
    Secretary Chao. Thank you.
    Senator Collins. Thank you, Senator.
    Senator Murphy.
    Senator Murphy. Thank you very much, Madam Chair. Thank 
you, Madam Secretary, for being here today.
    In your request to Congress, you note that ``the Northeast 
Corridor, the Northeast Rail Corridor is one of the most 
important transportation assets in the United States. The 
lifeblood of the region's economy, the NEC carries more than 
800,000 people each day on Amtrak and commuter services.'' That 
is in your submission to Congress and so I'm seeking to square 
that with a budget request to us that guts funding for the 
Northeast Corridor, that is going to make it fairly impossible 
for us to even maintain the state of good repair on what is the 
busiest rail corridor in the country.
    We carry about half of the country's passengers on a 
stretch of rail that is relatively short compared to the size 
of the nation.
    Your budget cuts the Amtrak NEC Program in half, from $650 
million to $325 million, and then completely eliminates the 
State of Good Repair Program, which is a Federal and state 
match program that benefits us greatly in the Northeast 
Corridor.
    So help me square this. Help me square your recognition 
that this is the lifeblood of our region's economy with these 
very draconian cuts.
    We feel like we have been targeted by this Administration 
and the President for specific cuts in infrastructure funding, 
and I may ask you another question about that, but help me 
figure out how I explain to my constituents why we're going to 
be levied with these enormous cuts even though the 
Administration seems to recognize that this is a vitally 
important transportation corridor.
    Secretary Chao. Well, they're not exactly cuts. Amtrak 
receives about $1.5 billion overall from the Federal 
Government. Indeed, it's the Northeast Corridor which is very 
important. I take Amtrak all the time myself. It's about $325 
million to support the capital needs and that has traditionally 
been the amount of the President's budget requests. There have 
been enacted amounts which are much higher but Amtrak has 
almost a billion dollars in cash. If you look at their balance 
sheet, that is still money on the books that they can be 
drawing down upon.
    Senator Murphy. Right. But that's nothing new.
    Secretary Chao. Why is there idle cash of a billion 
dollars?
    Senator Murphy. But I guess, how can you say they're not 
cuts? I mean, they are cuts. You are cutting the Northeast 
Corridor by $325 million.
    Secretary Chao. That's against the enacted, but compared 
with the President's request, it's always been around this 
level.
    Senator Murphy. Compared with enacted, right. Well, that's 
how we measure cuts is what we got last year versus what we get 
this year.
    So let me ask you another question about something we've 
talked about before and that is two particular projects which 
clog the Northeast Rail Corridor and that's Gateway and the 
Portal Bridge.
    A few weeks ago, FRA released its Annual Report and Funding 
Recommendations on the Capital Investment Grants and there were 
53 projects on that list. Only four of those 53 received 
ratings under the medium threshold and these----
    Secretary Chao. May I tell you something?
    Senator Murphy [continuing]. These two projects were 
amongst those four. Anyone who has spent any time riding the 
Northeast Corridor or surveying it knows that the entire system 
is clogged by the Portal Bridge in particular but also the 
inability to get the Gateway Project done.
    I know there is political hostility between the President 
and the New York delegation and I know there's financing 
questions about how you wish the state to go about coming up 
with that money. We discussed that last year.
    But to suggest that these are amongst the lowest priority 
projects within the CIG Program, I don't think you'd find much 
agreement on that inside the community of those who ride that 
rail on a regular basis.
    Secretary Chao. Well, these were ratings made not by the 
political staff. They're made by the career staff, career 
professionals, who look at all these different projects based 
on criterias of financing, of local participation. The 
political people don't have any say in any of that.
    Senator Murphy. So then just tell me, and maybe you don't 
know offhand, but what were the reasons why these projects, 
which clog the entirety of the corridor, which happen to be 
right next to New York City, represented by the Minority Leader 
of the Senate, were rated that low?
    Secretary Chao. It's actually quite complicated and a list 
of the issues, the problems, were actually shared with the 
sponsoring organization. Part of that is financing but it's 
actually quite complicated, and it's all laid out pretty 
transparently to them.
    Senator Murphy. All right. Well, I'll look forward to 
following up with you on that and trying to----
    Secretary Chao. Sure.
    Senator Murphy [continuing]. work with the Department of 
Transportation to come up with some alternative plan, if it's 
not the one that's been presented to you, in order to finance 
these projects. We cannot move people and goods up and down the 
Northeast Corridor if we don't have a way to move forward on 
the Gateway Project or an equivalent and the reconstruction of 
the Portal Bridge. They're not even in my state. I just know 
that my state can't move people anywhere without them.
    Secretary Chao. You have commuters going to New York and 
New Jersey.
    Senator Murphy. Thank you very much. Thank you, Mr. 
Chairman.
    Secretary Chao. Senator Coons.
    Senator Collins. Senator Coons.
    Senator Coons. Thank you, Madam Chair. Thank you, Madam 
Chair and Ranking Member, for another important hearing, and 
thank you, Secretary Chao, for joining us today. I appreciated 
hearing from you back in December and the opportunity to work 
with you on a BUILD Grant. It will be critical to protecting 
the Delaware Memorial Bridge.
    Delaware, although small sits at the juncture of a number 
of really critical transportation infrastructure projects 
across our country and I'm glad we've had the opportunity to 
work together on some investments in infrastructure security, 
as well.
    As someone who commutes virtually daily on the Northeast 
Corridor, I'll simply amend and extend some of the comments 
from my colleague from Connecticut. A number of us are from 
states where Amtrak plays a really significant part in 
transportation passenger rail and I recognize that from your 
perspective the relevant analysis is what was proposed in last 
year's budget. From our perspective, it's what was actually 
enacted.
    My concern about the cuts proposed to Amtrak is two-part. 
The Federal-state partnership for state of good repair strikes 
me as a great way to leverage state monies. Like TIGER Grants, 
state of good repair partnerships between the Federal 
Government and state governments allows state governments to 
bring the money to the table when they want to improve commuter 
rail, when they want to improve the Northeast Corridor in state 
of good repair.
    What's the wisdom behind zeroing that out all together? 
There's zero proposed for it. I recognize we may well put it 
back in enactment. We've done that the last 2 years, but when 
there's a $38 billion maintenance backlog in the Northeast 
Corridor and safety is a core concern and leveraging dollars 
and having state governments play a role is a key part, why 
zero that out in particular?
    Secretary Chao. I think it's a philosophical point on 
Amtrak overall, but as you mentioned, the Congress will do what 
the Congress does.
    Senator Coons. We will.
    Secretary Chao. Yes. But I think that the cash balances do 
need to be taken a look at. Why is it so high?
    But having said that, the Northeast Corridor is the only 
part of Amtrak that is heavily traveled, that is profitable, 
and it is important.
    Senator Coons. It is very heavily traveled, and it is 
generating revenue.
    The other piece of the Amtrak proposal in your overall 
budget, if I understand correctly, eliminates long distance 
routes in many states across the country and replaces it with a 
subsidy for states to take over bus service.
    If you could just take a minute and help me understand how 
eliminating national passenger rail service and basically 
turning Amtrak into the Northeast Corridor is a good idea for 
the nation as a whole.
    Even though Delaware really only benefits from the 
Northeast Corridor, I'm concerned about what this would do to 
Amtrak nationally.
    Secretary Chao. Well, obviously Amtrak's plans to 
restructure the long distance routes has not been met with 
great enthusiasm by many of the Senators in whose states these 
trains run. But it is also a fact that the average subsidy per 
head for the long distance is of concern and it's not 
sustainable. So it has to be continually subsidized, and a lot 
of the travelers that use the long distance routes they don't 
take the train for the whole distance. They only go from one 
point to another.
    Amtrak actually has plans for perhaps a bus system that 
would substitute for these shorter haul travels. It's part of 
their plan and what they've done is to try to move some of the 
long distance into these Restoration and Enhancement Grants.
    The National Network Grants was $611 million but the 
remainder of what the enacted amount was put into the 
Restoration and Enhancement Grants with an idea that somehow 
this can be worked out with the states for long-term phase-out 
of this.
    Senator Coons. Right. Let me just move to one other 
question, if I might, before my time's up, Madam Secretary.
    Secretary Chao. Yes.
    Senator Coons. I just enjoy working with you.
    Secretary Chao. Thank you.
    Senator Coons. But, I have to say I could not disagree more 
strongly about the future for Amtrak as laid out in your budget 
request and look forward to working with my colleagues from 
states where passenger rail is a critical part of our 
transportation infrastructure to ensure that there is adequate 
enacted funding for Amtrak.
    You do mention in your budget request that you're going to 
address the insolvency of the Highway Trust Fund in a fiscally 
responsible manner and according to the Airports Council, 
airports face more than a $100 billion in infrastructure needs.
    One of the big challenges I know you face is the lack of 
appropriate revenue to fund a lot of this infrastructure 
investment.
    Do you and the President support raising the gas tax which 
hasn't been raised since 1993 or lifting the cap on passenger 
facility charges to help pay for airport improvements?
    We are dramatically underfunding infrastructure in this 
country and I wonder if you're willing to embrace either of 
those proposals.
    Secretary Chao. Well, I think the good news is nothing is 
off the table and when we talk about the Highway Trust Fund, 
obviously it's very important.
    There's infrastructure discussions ongoing at the White 
House. The chairman of the House Transportation Infrastructure 
will be proposing some kind of a bill by May. The window for 
action is pretty short, has to be done by August.
    So we're interested in seeing what the proposals are and 
commenting on that. But there's a larger vehicle, the Surface 
Reauthorization Bill, which again the Administration is working 
on that needs to be also done on a bipartisan basis.
    Senator Coons. It does.
    Secretary Chao. And so through the surface reauthorization, 
we hope to be addressing the Highway Trust Fund.
    Senator Coons. Well, thank you, Madam Secretary. I just 
hope we can work on a bipartisan basis on an infrastructure 
package that addresses the unmet and unfunded needs in 
infrastructure in our country.
    Thank you for your forbearance, Madam Chair.
    Senator Collins. Thank you.
    Senator Boozman.
    Senator Boozman. Thank you, Chairman, and thank you, Madam 
Secretary, for being with us, and we appreciate all of your 
hard work.
    The first question I'd like to ask doesn't have anything to 
do with spending money. In fact, it's actually one of those 
things that saves a great deal of money.
    On April 9th, 2018, the Department of Transportation signed 
a Memorandum of Understanding implementing Executive Order 
13807, also known as One Federal Decision Framework. This 
Framework signaled a continued emphasis by the Trump 
Administration and yourself on expediting infrastructure 
project reviews by requiring improved coordination among all 
Federal agencies within a single process.
    Madam Secretary, understanding this is a relatively new 
Framework, has the One Federal Decision had an impact on 
streamlining approvals thus far, and then also very importantly 
as we go forward with reauthorization, is there additional 
tools that we need to give you to make the process even better?
    Secretary Chao. Well, as Senator Feinstein mentioned with 
the California projects, the longer it takes to build any 
construction projects, the more expensive it gets. Over time, 
the delays cost the public tremendous increases in the project 
and cost.
    So one of the ways in which we are trying to provide 
quicker deliverables, so to speak, for the American public is 
to re-examine the permitting process and see where there are 
common sense ways in which we can make it easier for 
construction projects to go forward without compromising 
safety, without compromising the environment. Just to give you 
some examples, right now, we have sister agencies within one 
department that are unable to share results of the same survey 
or the same report even. Each has to conduct their own report 
or their own survey.
    Secondly, a lot of actions by sister agencies within the 
same department cannot occur simultaneously. They have to occur 
sequentially.
    So are there not more sensical ways in which we could share 
information, do things simultaneously, concurrently rather than 
sequentially?
    So these are some of the issues that we are thinking about, 
but also One Federal Decision in particular gives one 
government agency the leading authority and responsibility for 
monitoring a particular project. And that particular agency or 
department would have the ability to overrule other 
departments, and hopefully that will give the ability for 
stakeholders to be able to move some projects quickly.
    Senator Boozman. No, I agree totally, and, you know, a 
great example of that was when the bridge collapsed in 
Minnesota. That was rebuilt in a year and if you'd gone through 
without the collaboration, you know, the attitude of we're here 
to help and, let's get this done, there's no telling how long 
that would have taken--well, 10+ years in a conventional way 
anyway.
    Secretary Chao. Well, you mentioned the bridge collapse. In 
fact, on March 31st, 2017, I-85, a major thoroughfare right in 
Atlanta, Georgia, which feeds seven counties, especially 
commuter traffic, burned and had to be collapsed. And because 
of the emergency powers that were available for emergencies, 
this highway bridge was basically restored to the benefit of 
the community in seven weeks ahead of schedule and below 
budget.
    Senator Boozman. Right. Right.
    Secretary Chao. It can happen.
    Senator Boozman. And again it can happen, saving money, and 
then also the economic impact, you know, that not having then 
just the hassle factor.
    So thank you very much. Thank you for being here.
    Secretary Chao. Thank you.
    Senator Collins. Senator Durbin.
    Senator Durbin. Thank you, Madam Chairman. Madam Secretary, 
good to see you, and thank you for the phone call the other day 
on the Boeing situation. I'll get to a question on that.
    This afternoon, the Inspector General from the Department 
of Transportation in testimony is going to say, ``While 
revamping FAA's oversight process will be an important step, 
continued management attention will be key to ensure the agency 
identifies and monitors the highest risk areas of aircraft 
certification.''
    I'd like to address that management question for a moment. 
I was glad that you called me on the Boeing situation because 
we sent a letter to you and others have joined, but can you 
comment on the fact that the President did not nominate a 
person to fill the Federal Aviation Administration for 14 
months?
    Secretary Chao. Of course leadership is important, but 
currently the FAA is led by a very able Deputy Administrator, 
who is the Acting Administrator. He graduated from the Air 
Force Academy, was a commercial pilot, was a military pilot, 
and has also been in Washington and understands the policies.
    Senator Durbin. Is he the new nominee?
    Secretary Chao. He is not. The new nominee has just been 
announced. But let me also say that the previous FAA 
Administrator from the previous Administration stayed on until 
January 8th, 2018.
    Senator Durbin. It is unusual, is it not, for an agency 
that's accepting the responsibility for the safety of aircraft 
in America has a vacancy and a deputy administrator or 
designated administrator for 14 months? Isn't that unusual?
    Secretary Chao. I guess it is more unusual. But in this 
Administration, there's been quite a slowdown in nominations on 
both sides.
    Senator Durbin. Well, I know that I was expecting that for 
a variety of reasons, but this is situation where the President 
didn't send a nominee to an agency with that responsibility.
    So may I ask you on the infrastructure question? Every time 
I go back home, without fail this is the first item I'm asked 
about is infrastructure. People are focused on it. They're 
wondering when this Federal Government is going to come around 
to the realization that we have to do something and at this 
point in time with the gas tax by gallon that has been in place 
now for 26 years, I'm guessing, and not enough money coming 
into the Highway Trust Fund because of a variety of factors, it 
appears that absent some significant commitment by Congress and 
the President, we're not going to solve this problem.
    We have more and more fuel efficient cars and trucks 
burning fewer gallons of gas, more and more electric vehicles, 
and yet the demands for infrastructure continue to grow apace.
    So I was heartened by your response to Senator Coons 
earlier about everything's on the table. I don't want to 
mischaracterize what you said but that's what I concluded, that 
everything's on the table.
    Can you give us a time table about when we can expect 
honest negotiations to go forward on infrastructure?
    Secretary Chao. I think it's an issue that we all need to 
discuss because we have surface reauthorization coming up. So 
does it make sense to have two vehicles, an infrastructure bill 
and a surface reauthorization?
    Given the compressed timeframe, it may very well be that 
there should be--it's easier for everyone, ourselves as well as 
the Congress, Senate and the House, to have one vehicle and 
that perhaps should be the surface reauthorization bill.
    Senator Durbin. And are you going to convene the 
appropriate parties to start this conversation?
    Secretary Chao. Well, I think we have certainly learned 
from the past that such a project should not be done in 
isolation, but done in consultation with the Congress. I am 
certainly a believer.
    Senator Durbin. That I think is a great idea, and let me 
also add that the President has said on his own, he's said many 
things, but on his own, he has said that what we now 
characterize as congressional-directed spending was a good 
idea, and I happen to believe it was a key to passing an 
infrastructure bill and moving things forward.
    Does the Administration or do you have an opinion when it 
comes to so-called congressional-directed spending as part of 
this process?
    Secretary Chao. Well, the President has said that. I agree 
with the President.
    Senator Durbin. That's good news. Thank you, Madam 
Secretary.
    Senator Collins. Thank you, Mr. Chairman. Mr. Chairman, 
geez, I'm giving you a promotion here now.
    Senator Daines.
    Senator Daines. Thank you, Chairman Collins and Ranking 
Member Reed, for holding this hearing, and thank you, Secretary 
Chao, for appearing before this subcommittee.
    I also want to thank you for the work you've done on 
focusing on the needs of transportation in rural states, like 
Montana. Discretionary grants, such as BUILD, have had a 
tremendous impact on our state, but it's important we also 
continue to focus on the importance of formula funding.
    I want to talk more about the electronic logging devices. 
Secretary Chao, when I'm back home in Montana, it's one of the 
greatest concerns I hear related to red tape and burdensome 
Federal regulations. It's this mandate on electronic logging 
devices. It's something I've discussed many times.
    This issue is raised about every meeting I have across the 
state, whether it's in Great Falls or Miles City, particularly 
from our AG community. Our Number 1 economic driver in Montana 
is agriculture. It's ranchers. It's livestock haulers. It's 
wool growers. It's seed potato farmers. It's honey producers. 
They've all raised concerns about this ELD mandate and its 
impact on their ability to get their products to market 
efficiently and, importantly, safely.
    We see this one-size-fits-all regulation having harmful 
effects on Montana's farmers and ranchers and across the 
trucking and AG industries.
    Thankfully, through the leadership of many, including 
myself, we've been able to delay the mandate for our livestock 
and AG haulers and will do so again this year. I'm pleased to 
see (FMCSA) Federal Motor Carrier Safety Administration looking 
at hours of service regulations. That process, as you know, is 
going to take many months or even years to complete.
    So my question is, what are you doing presently to find a 
workable solution for our farmers, our ranchers, our small 
businesses regarding the ELD mandate and the hours of service 
regulations?
    Secretary Chao. Actually, that's a very good question. We 
have been listening to the concerns of Senators like yourself 
about the ELD. We have given waivers on meritorious grounds for 
hardship.
    We have also gone out with an Advanced Notice of Proposed 
Rulemaking. The public comment ended on October 10th. We have 
over 5,200 comments, and FMCSA is evaluating them and deciding 
what to do next.
    But I will have to ask them what they are doing currently 
to address this while this is ongoing.
    Senator Daines. Thank you.
    Secretary Chao. I will get an answer back to you.
    Senator Daines. Yes, and thank you for listening to Rural 
America. These farmers and ranchers sometimes wonder if their 
voice is ever heard in Washington, D.C., and I want to thank 
you for listening to them and their comments. It's very, very 
important to our Number 1 industry in Montana which is 
agriculture.
    I want to shift gears and talk about another important 
connectivity issue, whether it's trucking, this time it's 
airports. Airports in Montana have seen rapid growth over the 
last decade with many an expanding service.
    Unfortunately, the Contract Tower Program doesn't provide 
the flexibility needed to expand tower staffing. In fact, our 
busiest airport is Bozeman. That's my hometown in fact. It has 
nearly one and a half million passengers, over 91,000 tower 
operations annually. It had to pay for a full-time controller 
out of their own budget. Missoula is nearing the point where 
they're going to have to do the same thing.
    The question is, why are these airports required to locally 
contribute so much financially to what is a government 
function, and what could we do, what could you do to add 
flexibility to the program so they don't have to continue to 
bear that substantial financial burden?
    Secretary Chao. Well, the total funding requested for the 
Contract Tower Program in our current budget is $169 million. 
So it fully funds all the towers participating in the program.
    There is a volume factor that determines whether a contract 
tower extends its hours where therefore the FAA bears the cost. 
So this is an issue where if they don't meet the minimum, which 
I think is 10 per hour or something like that, the FAA does not 
extend the hours. We can talk with you about that.
    Senator Daines. Yeah. We'd like to work with you to get 
some more flexibility there because we want to incentivize 
these contract tower operations to have some flexibility there 
because we're saving the taxpayer dollars with these contract 
towers and we'll work with your team on that to give us 
flexibility so we don't have the out-of-pocket costs coming 
from our airports.
    Last question is another connectivity question. It's 
Amtrak. Of course, connectivity is a big deal for states like 
Montana. We're off the beaten path. We rely on the Amtrak, 
particularly on the High Line. Recent nears relating to Amtrak 
limiting or eliminating long distance services are troubling.
    We've removed ticket agents from Selby, from Havre, and it 
impacts our communities directly. The Empire Builder is where 
my great-great grandma came out to Montana on in fact years 
ago.
    Question is, what can you and Amtrak do to continue to meet 
the needs of these rural communities who are just 
disproportionately affected with reductions in Amtrak and 
ensure they continue to have the access to this national 
network?
    Secretary Chao. Well, the Federal Government funds Amtrak 
to the tune of about $1.5 billion a year. So I know that the 
President of Amtrak, Richard Anderson, is very concerned about 
the viability of long distance.
    They do capture the dreams, you know. It's kind of rare. 
Travel is very important. But there's also a subsidy cost per 
head. So I think Amtrak is trying to reassess how best to 
address the needs of these rural communities and maintain 
mobility, but also think of some other way to reduce the 
subsidy.
    So one of the ways that they've tried to do it is through 
Restoration and Enhancement Grants. They've taken half of the 
National Network Grant that was enacted last year and put it 
into Restoration and Enhancement Grants. They want to negotiate 
with state governments to see whether the states can be phased 
into taking a larger local share.
    Obviously this is going to have to depend on lawmakers 
agreeing and if legislators don't agree with it, well, then 
this won't go any place. But that was the original intent 
because a lot of times travelers, passengers, they don't go all 
the way from Chicago to California. They go partway.
    So it's not usage of the entire long distance route, and I 
think Amtrak is thinking could there be some other alternative 
for these shorter hauls to meet the mobility, and 
transportation needs of these rural communities.
    Senator Daines. I'm out of time, Secretary Chao. Thank you.
    Senator Collins. Thank you.
    Senator Murray.
    Senator Murray. Thank you very much, Chairman Collins, 
Ranking Member Reed, and thank you both for your very hard work 
on the fiscal year 2019 Spending Bill that I think you did a 
really excellent job and made new investments and we all 
appreciate it.
    Before I begin my questions, Madam Secretary, I would like 
to make a quick statement on the grounding of the Boeing 737 
Max planes.
    Nothing is more important than the safety of our families 
and our travelers and I know the DOT and FAA are working with 
Boeing to take steps to determine what exactly went wrong.
    I understand your department has created a task force to 
examine the process by which new planes are certified for use 
and I look forward to seeing your findings so we make sure that 
nothing like that happens again, and I would like to ask you to 
continue to work as transparently as possible and to keep us in 
the loop on any new information or developments that occur.
    Secretary Chao. I will do so.
    Senator Murray. I would appreciate that.
    Secretary Chao, we have spoken several times about a 
constituent of mine, Allison, who bravely told me about being 
sexually assaulted on a long distance flight and in the past 
year, I've heard more and more disturbing reports of sexual 
assaults occurring on airplanes.
    The Association of Flight Attendants conducted a survey of 
nearly 2,000 flight attendants and found one out of five flight 
attendants have experienced a report of passenger-on-passenger 
sexual assault while working on a flight and that's why I 
worked last year to include language requiring the 
establishment of the National In-Flight Sexual Assault Task 
Force in both the 2018 appropriations legislation and in the 
FAA reauthorization, and while I really do appreciate that the 
first meeting of the task force is happening soon, I am very 
concerned that delays, including the delay from the shutdown, 
have slowed down its development.
    I'm also very concerned that key stakeholders I have worked 
with and heard from are not included in the task force. In 
particular, I have been in touch with Allison, who recently got 
a letter saying that she was not being invited as part of the 
task force, and I really think that is a true shame.
    She's been a strong advocate for making meaningful change 
so that others don't go through what she experienced, and she 
also told me that the only offer of any sort she received from 
the task force was to submit a letter. That is not the type of 
real best engagement with the task force I had hoped the 
survivors would have.
    I wanted to ask you, can you tell me how you do plan to 
ensure that all stakeholders who are interested in helping to 
solve these problems will be able to work with the task force?
    Secretary Chao. I want to assure you that this is an issue 
that is important, that no one should have to worry about 
sexual assault or harassment when taking a flight, any flight 
of any duration.
    So because of the strong commitment, we did establish the 
task force, the National In-Flight Sexual Misconduct Task 
Force, with your leadership, as well. We have structured it so 
that it can act quickly and that certain information can be 
held confidential.
    There is a way in which people can participate and we can 
provide more information to your staff on that, as well.
    Senator Murray. Well, I would appreciate it if you would 
provide more information, but I think it is important for us to 
tell Allison, who has started this and has worked so hard on 
it, that she is more than just a letter to the committee, that 
her input--and she's worked on this very long and very hard 
with me and with a number of people.
    So I would like to have your staff talk with us to see that 
we can get her better involved and all survivors, be a voice 
for all survivors.
    Let me pivot quickly to the Capital Investments Grant 
Program. I want to thank you for completing the Lynnwood Link 
Full Funding Grant Agreement in December, which will allow that 
project to move forward and begin construction, and I want to 
acknowledge the President's fiscal year 2020 Budget Request 
funding for new projects, which is a significant departure from 
years past and more accurately reflects the bipartisan 
commitment to this program.
    It is critical that the State Grants Program is properly 
executed and projects are moved through this in a timely 
fashion and one of those projects I did want to call to your 
attention is the Federal Way Link Extension.
    This budget request states, ``The Capital Investment Grant 
Program should focus on projects with high non-Federal funding 
commitments and currently Sound Transit is working with the 
Federal Transit Administration to advance this Federal Way Link 
Extension to a full funding grant agreement this year.''
    That project is requesting only 25 percent Federal share 
and Sound Transit's total capital budget calls for a total 
Federal share of just 16 percent.
    Is that the type of project that meets the Administration's 
criteria?
    Secretary Chao. I can't give you an answer right now, but 
I've said a number of times in this hearing we're not holding 
anything back. These are complicated projects. They need to 
meet certain milestones, and I'll be more than glad to provide 
an update.
    Senator Murray. Okay. Well, I would appreciate a response 
back on that.
    And then Sound Transit has also submitted to enter into the 
engineering phase on the Federal Way Link Extension back in 
early October 2018, as they've been waiting approval to enter 
this next phase since December, and in order to maintain the 
budget for the 25 percent Federal share project, it's essential 
that they stay on schedule.
    So if you can give me an update on that, as well, I would 
really appreciate it.
    Secretary Chao. I'm pleased to.
    Senator Murray. Okay. Thank you. Thank you very much, Madam 
Chair.
    Senator Collins. Thank you, Senator.
    Madam Secretary, I want to return to an issue that I raised 
in my opening statement about the inadequate funding for the 
training vessel for state maritime academies.
    As you're well aware, in fiscal year 2018, we provided $300 
million for a new training ship for New York's Maritime Academy 
and in this past bill in fiscal year 2019, we provided another 
$300 million for Massachusetts, and according to the 
department, using an identical design to replace each training 
vessel helps achieve significant cost savings with each 
additional ship and there's a learning curve, but no one is 
suggesting that you could achieve cost savings to make up for 
the delta that is in this year's budget for the ship that is 
designated for Maine Maritime Academy.
    The Administration cites the lower number of students 
enrolled at Maine Maritime Academy compared to other state 
maritime academies in order to justify its proposal, but what 
we found after further discussions with OMB, which offered that 
justification, and with the State Maritime Academy is that this 
fails to recognize the right measure.
    What matters is that the Maine Maritime Academy has 
virtually the same number of Coast Guard-licensed graduates as 
Massachusetts or, for that matter, California and therefore the 
same training needs because these cadets need training at sea.
    So when you look at the number of cadets that need training 
at sea in order to get their unlimited Coast Guard license, 
it's the same virtually in Massachusetts as it is in the state 
of Maine.
    So OMB seems to have been operating under a completely 
wrong assumption in coming up with the funding of only $205 
million.
    It simply doesn't make sense to change the size of the 
training vessel when the Administration last year supported the 
request for the training ship for Massachusetts having the same 
number of cadets that need that training at sea.
    I would just ask again for your commitment to work with us 
in finding a path forward so that MARAD doesn't have to go back 
to the drawing board, spend an enormous amount of time and 
money in designing a whole new ship, when in fact the 
appropriate metric is how many cadets in the academy need at-
sea training and that is the same for Maine as it was for 
Massachusetts.
    Secretary Chao. Senator, I hope Maine knows what an 
advocate they have in you because every time that we talk, 
you're always advocating for your state, and the latest example 
is with this school ship.
    Your arguments and the points that you made, are very good 
ones and I look forward to working with you on it.
    Senator Collins. Thank you very much, Madam Secretary.
    I want to switch to the issue of positive train control. As 
you know in 2018, there was a bad accident in Washington State 
that would have been prevented had positive train control been 
installed on that train.
    Last December, the department announced a real milestone, 
that all 41 railroads that are required to implement positive 
train control systems had met the statutory requirements to 
qualify for a little additional time, but they had installed 
the necessary hardware and made sufficient progress in testing 
positive train control.
    I do want to share with you a conversation that I had not 
on a train but on an airplane with the head of the union for 
railroad signalmen in the state of Maine and he raised the 
issue of training.
    He said that the trains have done a very good job of 
getting installed the software and doing the testing but that 
they haven't done as much training of personnel that they need 
to do.
    So I just wanted to pass that on to you and to ask for you 
to look into the training issue, as well.
    Obviously the software is key, the testing is key, but we 
need to make sure that the personnel, the railroad signalmen 
and others involved receive the appropriate training that they 
need.
    Secretary Chao. Well, I totally agree.
    Senator Collins. Thank you.
    Secretary Chao. The world is getting more complicated. 
Technology is rushing ahead so quickly, and training is very 
important.
    Senator Collins. And finally, I want to bring up to you 
another airplane incident. It involved a small aircraft, a 
commuter airline in Prescott, Maine, and this is our most 
northern commercial airport in the state of Maine.
    On March 4th, a small aircraft, which was coming from 
Newark and operated, I believe, by United Express, landed very 
roughly at the Prescott Airport on its second attempt at 
landing. It hit the ground. It bounced numerous times. Three 
people were injured, two passengers and a crew member, and the 
plane experienced substantial damage.
    I've read the preliminary report from the National 
Transportation Safety Board and what it tells us is that the 
United Express airplane landed between Runway 1 and the Taxiway 
A in light or moderate snow. This wasn't one of our huge 
snowstorms that we get. So it was particularly disturbing and 
frightening that this happened.
    It also happened after the aircraft had conducted a missed 
approach. So this was the second attempt to land. The flight 
was found to have aligned right of the Runway 1 during both 
approaches.
    So this was a very disturbing incident, and we very much 
appreciated the very prompt report that the National 
Transportation Safety Board did.
    My question is, what happens after a report like this? I 
don't know what the process is. I was very happy that the NTSB 
immediately sent up investigators. They identified that there 
had been two faulty attempts at landing that severely damaged 
the aircraft and caused three injuries, but I don't know what's 
the next step.
    Could you either today or for the record give me 
information on what happens next to ensure that this kind of 
preventable accident doesn't happen again?
    Secretary Chao. Senator, I have actually seen pictures from 
that accident, and it surprises me that you said it was a light 
snowstorm in Maine. I thought it was quite heavy.
    But the point is, what is the FAA doing to help airports 
that are located in severe weather regions how to handle 
incidents such as this?
    There's, of course, ground control, ground-based instrument 
landing systems, but that's affected by the snow and the 
accumulation of snow. The satellite-based systems are much 
better and the FAA is supposed to be working with the airport 
on investments in both systems and they're supposed to be 
working with the airport to take advantage of both types of 
technology.
    Your question is a good one. I will go and see, but they're 
supposed to be working with the airport and I thought that's 
what they were doing, but I will check on that.
    Senator Collins. Thank you very much.
    Senator Reed.
    Senator Reed. Well, thank you, Madam Chairman, and thank 
you, Madam Secretary, for your testimony today.
    We've all been shocked with the scenes from the Midwest of 
the massive flooding and devastation and it has affected the 
livelihood, the lives of the thousands and thousands of our 
fellow Americans.
    We will respond. We must respond with emergency support and 
will have to rebuild bridges and rebuild roads, but we want to 
make sure we do it in a sustainable way because these used to 
be sort of one-off experiences.
    When you have a hundred-year flood every 3 years, you've 
got to wonder what's going on, and one of the aspects of this 
is the fact that in 2017, the Administration took out, 
eliminated the Federal Flood Risk Management Standard, which 
was a guideline for reconstructing bridges and infrastructure 
so they could be sustainable given the climate change effects 
and that basically invites some states, particularly under 
fiscal pressure, to simply put up what they had before, not 
take into consideration the climate effects, the changing 
aspects of this.
    And this issue of climate is not just the Midwest, though 
that's the current disaster, and again we are absolutely 
sympathetic with the people that are suffering out there, but 
we were talking about the Northeast Corridor.
    If you ride the train from here to Providence, Rhode 
Island, you will go past coastline which is being slowly eroded 
by rising seas. You'll go through areas where the wetlands are 
becoming more and more threatening to the tracks. That's going 
to be a huge cost that Amtrak will have to face.
    So the point is, how will you and the department ensure 
that these transportation projects are built and properly 
located and designed to withstand what we know is coming, the 
effects of climate change and rising waters?
    Secretary Chao. Well, I think the resiliency of 
infrastructure is very important, to be prepared for natural 
disasters of any sort, and so we need to work to ensure that 
infrastructure projects are able to meet these unusual 
circumstances.
    The Federal Highways Administration has supported pilot 
projects to see how we can increase resiliency and I think FHWA 
has supported about 40 resiliency pilot projects across the 
country. They've initiated 11 state and metropolitan pilot 
projects focused on making transportation more resilient and 
more durable.
    Senator Reed. Well, I appreciate that, but again we will 
be, we have to rebuild all these structures in the Midwest and 
not just in the Midwest, all across the country, and if we 
don't have the governing rule, then pilot projects are helpful 
but they won't be decisive.
    So I'd urge you to move either to re-evaluate the decision 
to repeal the regulation or guidance or to put in new more 
effective guidance in your view.
    Let me change topics for a moment. You probably might be 
aware that we suffered up in Rhode Island a gas outage 
affecting 10,000 Rhode Islanders, in Newport, in Middletown, 
and Portsmouth, and we have been working with the Pipeline 
Hazardous Materials Safety Administration (PHMSA), to 
understand how it happened. It was a multistate occurrence. So 
there is involvement in the Federal Government as well as the 
local government.
    Could you give us an update on what you've learned to date 
on the pending investigation of what went wrong and what we 
have to correct?
    Secretary Chao. PHMSA is extremely experienced and 
professional and their highly-trained inspectors concluded that 
the high customer demand for natural gas during the stretch of 
extreme cold, combined with an emergency shutdown of a 
liquefied natural gas facility, created conditions leading to 
the outage.
    PHMSA actually doesn't regulate gas supply matters. But 
because the Rhode Island Governor, your governor, declared a 
state of emergency, PHMSA staff immediately reached out to the 
Rhode Island Division of Public Utilities and Carriers and 
tried to work with them.
    Senator Reed. This raises, I think, a more general issue 
not just for Rhode Island but these pipelines are old, 
particularly interstate pipelines, and PHMSA has regulatory 
authority because of the interstate nature.
    Then you have state public utility commissions in Rhode 
Island and in other states. Usually the responsibility is 
shared in some respects. In fact, we're told some of the 
problems occurred in a Massachusetts site but it affected Rhode 
Island and not Massachusetts.
    So one of the things I think we have to do is develop a 
standard procedure where PHMSA is working with state utility 
commissions in a proactive way, not just simply reactive, and I 
appreciate them coming to the assistance of Rhode Island.
    Secretary Chao. And we're still working with them.
    Senator Reed. Yes, and so that when there is an outage, 
it's almost like maybe the analogy we've been talking about all 
morning, the NTSB, where when something happens, they're there 
on the ground. They're coordinating the response, almost FEMA-
like, too. When something happens, FEMA's on the ground with 
the local emergency management.
    It's just this incident--frankly, we're very fortunate in 
Rhode Island, there were no casualties as there were a few 
weeks before that in Massachusetts where there was a gas 
explosion. So we're very grateful for that. But 10,000 people 
were without heat. A major city in the state closed down for 
several weeks.
    I think we do have to have much more of a coherent and 
constant coordination between PHMSA and the state utility 
commissions and I would urge you to look into that.
    Secretary Chao. I understand.
    Senator Reed. Thank you. Thank you, Madam Chairman. Thank 
you very much. Thank you, Madam Secretary.
    Senator Collins. Thank you, Senator Reed.
    Secretary Chao, thank you so much for joining us today. As 
you could see from the number of members who attended, there is 
great interest in the budget that you've presented and also in 
the crashes which we have discussed today.
    We very much appreciate your forthright testimony and your 
being here with us today.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open for the submission of 
additional questions, I suspect both the Ranking Member and I 
will have a few to send your way, until next Friday, April 5th, 
2019.
    Secretary Chao. Thank you.
            Questions Submitted by Senator Susan M. Collins
                          highway investments
    Question. I am concerned that the Administration's budget once 
again offers no proposals for our nation's highway system once the FAST 
Act expires at the end of fiscal year 2020. Our states need certainty 
so they can plan future transportation projects not an abandonment of 
our duty to foster interstate commerce. The lack of a long-term plan 
with stable revenue puts American infrastructure on an impossible 
trajectory. The American Society of Civil Engineers has determined a 
backlog of more than $4.5 trillion in needed infrastructure investments 
in their most recent 2017 report card.
    Madam Secretary, is the Administration developing a plan to provide 
needed, increased investments in infrastructure?
    Answer. Infrastructure continues to be a priority for the 
Administration.
    The 2020 Budget commits to working with the Congress on a long-term 
surface transportation reauthorization to provide our State, local, and 
private partners the certainty they need to effectively plan and 
deliver projects. In addition, the Budget provides $200 billion for 
other infrastructure priorities, across a range of infrastructure 
sectors, to be allocated in partnership with the Congress. The Budget 
also makes targeted investments in the BUILD and INFRA grant programs, 
and a competitive highway bridge program.
    The President has repeatedly stated that when it comes to 
infrastructure investment, all options are on the table. As we approach 
the expiration of the FAST Act on September 30, 2020, we look forward 
to working with our partners in Congress to address the structural 
insolvency of the surface transportation programs funded out of the 
Highway Trust Fund.
                  fmcsa bus lease and interchange rule
    Question. On September 20, 2018, the Federal Motor Carrier Safety 
Administration (FMCSA) published a Notice of Proposed Rulemaking to 
revise a prior 2015 final rule on the lease and interchange of 
commercial passenger vehicles. This followed the filing of multiple 
petitions by the passenger motor carrier industry in 2015 and a notice 
published by FMCSA on August 31, 2016, announcing its intent to revise 
the rule. Rather than finalizing this new rulemaking that has industry 
and stakeholder input, DOT has simply continued to delay compliance 
with the 2015 rule.
    Since the comment period ended last fall for a revised rule, can 
you provide a timeframe for when FMCSA will complete this rulemaking 
and publish a new final rule?
    Answer. The comment period for the NPRM ended on November 19, 2018. 
The Department is working on the final rule and expects the rule to be 
published this summer.
                 dot oig report on information security
    Question. The Federal Information Security Management Act of 2002, 
known as FISMA, requires inspectors general to conduct annual reviews 
of their agencies information security programs. According to the most 
recent IG report, DOT's 471 IT systems have significant deficiencies 
that place DOT's information systems at increased risk and make them a 
target for malicious attackers. For example, DOT has not transitioned 
all of its information systems to use of multifactor user identity 
authentication and many DOT systems do not require use of personal 
identity verification, or PIV, cards. The lack of user identity 
authentication and access control may lead to unauthorized access to 
DOT's information systems.
    Madam Secretary, how will DOT improve its I.T. security posture and 
ensure that unauthorized personnel are not accessing DOT's information 
systems?
    Answer. To improve its I.T. Security posture, the Department began 
multiple lines of effort starting in fiscal year 2018, planned to 
extend through fiscal year 2020. Foundationally, the Office of the 
Chief Information Officer (OCIO) initiated its ``Destinations Digital'' 
transformation initiative to re-envision and re-align IT procurement, 
management and operations for improved efficiencies, outcomes, and 
security as a result of improved resource management, controls, and 
oversight.
    The Department also initiated an acquisition effort for a multiple-
award, enterprise-wide cybersecurity contract which it expects to award 
in fiscal year 2019, with the goal of standardizing practices, reducing 
duplication of effort, and consolidating the visibility into--and 
management of--cybersecurity risks associated with DOT systems.
    And lastly, the Department will continue its investment in 
infrastructure and capability enhancements including: completion of a 
network modernization initiative that provides a software-defined 
network with improved cybersecurity monitoring and controls, a secure 
enterprise cloud architecture to host migrated and new DOT mission 
systems and applications, enhanced vulnerability assessment and 
management tools and services, and improvements to endpoint security on 
DOT desktops, laptops, and servers to provide earlier detection, 
alerting, and automated mitigation of unauthorized activity.
    Addressing the imperative to reduce the risk of unauthorized 
personnel accessing DOT systems, the Department has made it a 
requirement for personnel to use multi-factor authentication via their 
Personal Identity Verification (PIV) cards to access DOT networks, 
achieving 100 percent mandatory privileged access using a PIV card, and 
98 percent mandatory unprivileged access, as of the first quarter of 
fiscal year 2019. Continued attention on closing the remaining 2 
percent gap will address technical issues and use cases that are 
currently impeding the Department from achieving a full 100 percent of 
mandatory PIV usage for unprivileged users.
    The Department also established a production agreement with GSA for 
use of its Login.gov strong authentication shared service, and has 
deployed the service in support of multiple DOT websites and systems. 
Subsequent efforts in fiscal year 2019 and fiscal year 2020 will 
evaluate and implement additional upgrades to Departmental 
authentication and authorization infrastructure to improve controls and 
visibility in order to detect anomalous or unauthorized access, and to 
improve and automate the assignment, revocation, and management of 
access to DOT networks and systems.
    Lastly, the Department will re-evaluate its current use of 
encryption technology, and will work to improve the use of encryption 
where appropriate in order to better protect information at rest and in 
motion. Specific attention will be given to agency high-value asset 
systems, and to known repositories of sensitive information.

                                 ______
                                 

             Questions Submitted by Senator Lamar Alexander
                           foothills parkway
    Question. The Foothills Parkways was authorized by Congress in 1944 
to be a 72-mile scenic parkway. Today, there are 33.5 miles Foothills 
Parkway that are unfinished.
    In 2002, the National Park Service--working with the Department of 
Transportation and the Federal Highway Administration conducted an 
analysis for the cost of competition of these 33.5 miles and the 
National Park Service estimated it would cost over $250 million--or 
$7.5 million per mile--to complete.
    Could you give me a preliminary estimate of how much it would cost 
today to build the remaining 33.5 miles of the Foothills Parkway? Could 
you also briefly explain what steps the National Park Service and the 
Federal Highway Administration would have to take to complete the 
Foothills Parkway, and provide a tentative timeline?
    Answer. The preliminary estimate for the total cost to complete the 
remaining 33.5 miles of the Foothills Parkway is $660 million. It is 
estimated that it would take approximately 10 years to complete the 
Foothills Parkway.
    This timeline includes the following steps with approximated 
durations: 1 year for field investigations, 2 years to complete a 
conceptual design and the NEPA process (contingent on being able to do 
one Environmental Impact Statement for the 3 remaining segments instead 
of 3 separate planning documents), 3 years for final design and 
permitting, and 4 years for construction.

                                 ______
                                 

                Questions Submitted by Senator Roy Blunt
                            complete streets
    Question. Madam Secretary under your leadership the Department of 
Transportation has started implementing Fixing America's Transportation 
Act policies, the FAST Act, with states and local municipalities taking 
into account future forms of mobility, including electric scooters and 
dockless bicycles. In doing so your department has truly served as a 
partner with those communities and lawmakers on the ground. As you 
know, consumer-demand along with innovation continues to drive a more 
diversified market for new forms of micro- and multimodal mobility 
options on our streets. This demand, however, needs to be coupled with 
policies, such as the Complete Streets program as authorized in the 
FAST Act, that embrace new forms of transportation while also ensuring 
for the safety and convenience for all users of a transportation 
system.
    How will your department further incentivize states, metropolitan 
organizations (MPOs), and local jurisdictions to implement complete 
streets-compliant plans and projects?
    Answer. The Department supports and encourages Complete Streets 
that enable safe use and mobility for all modes of travel, whether by 
automobile, walking, bicycle, or transit. Implementation of Complete 
Streets ensures that the entire right-of-way is planned, designed, and 
operated to provide safe access and mobility for all users. This helps 
to make streets safe and accessible for people of all ages and 
abilities in both urban and rural communities.
    In response to Section 1442 of the FAST Act, the Department issued 
a Safety for All Users report, which discusses how State DOTs can 
integrate policy and program approaches into their project planning, 
development, and operations to overcome barriers and improve safety for 
all users of the surface transportation network. The Department also 
provided technical assistance to nine State DOTs (Delaware, Iowa, 
Louisiana, Maine, New Hampshire, North Dakota, Pennsylvania, Tennessee, 
and Virginia) through workshops designed to help them build internal 
capacity to plan, design, construct, operate, and maintain context-
sensitive transportation networks that are safe for all roadway users.
    Departmental modes have worked collaboratively to develop resources 
and training to promote Complete Streets concepts and improve safety. 
Recently, the Department shared information on its new Bikeway 
Selection Guide; a resource that assists transportation planners to 
make informed decisions about trade-offs relating to the selection of 
bikeway types. The Department also supports the Every Day Counts 
initiative Safe Transportation for Every Pedestrian (STEP), which 
includes an innovation that is focused on reducing pedestrian 
fatalities at uncontrolled crossing locations and un-signalized 
intersections. Additionally, the Department has developed a variety of 
resources, including guidance on creating multimodal performance 
measures to track progress, and on accelerating multimodal project 
delivery.
    Planning efforts and projects that help implement Complete Streets 
are eligible under a wide variety of surface transportation program 
funding sources, both discretionary and formula-based. By providing 
funding opportunities as well as technical assistance and information 
on planning, design, and implementation, the Department is 
incentivizing delivery of Complete Streets projects.

                                 ______
                                 

              Questions Submitted by Senator John Boozman
                         drug-impaired driving
    Question. Secretary Chao, as you are well aware, we are seeing an 
uptick of drug-impaired driving in the U.S. with marijuana 
legalization, not to mention, the opioid crisis. I applaud your team at 
the National Highway Traffic Safety Administration (NHTSA), in 
particular Deputy Administrator Heidi King, for making this a priority.
    Would you address your fiscal year 20 drugged driving initiatives 
from a safety perspective and talk about the need for more research on 
this issue?
    Answer. Thank you, Senator Boozman, for your recognition of this 
important safety priority. Drug-impaired driving has joined alcohol-
impaired driving as a serious safety concern on our highways, and 
that's why the Department of Transportation is supporting the National 
Highway Traffic Safety Administration's (NHTSA) initiative to raise 
public awareness and strengthen the tools to reduce drug-impaired 
driving on our roadways.
    NHTSA is spearheading safety initiatives to: 1) build public 
engagement to discourage drug-impaired driving; 2) strengthen state and 
local programs that combat drug-impaired driving; and 3) advance the 
state of knowledge related to all forms of impairment that impair 
drivers.
    To raise public awareness and encourage safe driving behaviors, 
NHTSA has launched a media campaign and has been working with partners 
and stakeholders to reach into diverse communities to highlight the 
importance of reducing drug-impaired driving.
    To strengthen state and local programs, NHTSA organized dialogues 
with local leaders and experts across the country to hear about these 
issues, and to facilitate the sharing of best practices, lessons 
learned, and other tools. Further, NHTSA has made available additional 
grant funds to support law enforcement training.
    Because of the number, and combinations of, impairing substances 
identified in drivers, the complexity of drug-impairment is 
unprecedented and NHTSA research planning efforts are underway. The 
fiscal year (FY) 2020 budget requests $5 million for the drug-impaired 
driving program, an increase of $3.48 million from fiscal year 2019 
requested levels. The requested levels are intended to support the 
Drug-Impaired Driving Initiative launched on January 25, 2018. The 
focus of the program is to: 1) understand the relationship between drug 
use and crash risk through research; and 2) employ countermeasures, 
such as training for law enforcement and other criminal justice 
professionals, and public education.
    The initiative will also provide increased drug-impaired driving 
education and training for all segments of the criminal justice system, 
expand the national media campaign on drug-impaired driving, and 
develop new resources and technical assistance to strengthen State and 
community drug-impaired driving programs.
    As the only Federal agency mandated to improve driving safety, 
NHTSA must be able to provide accurate and reliable data for planning, 
evaluation and research purposes. Funding will support critical 
research needed to better understand how drug use and impairment impact 
driver safety. It is vitally important that law enforcement and 
toxicologists have reliable methods to detect drug use and driver 
impairment.

                                 ______
                                 

              Questions Submitted by Senator Steve Daines
                  airport improvement program funding
    Question. Many, if not all, of the airports in Montana have applied 
for supplemental AIP funding to help with expansion.
    Could you provide a timeline on when those decisions can be 
expected?
    Answer. The FAA awarded a first round of grants (worth 
approximately $205 million) from the fiscal year 2018 supplemental AIP 
funding to airports in 34 states in late September 2018. We are now 
actively engaged in reviewing 2,652 requests totaling more than $10.9 
billion for the second and final round, for which $789 million remains 
available. These proposals include 71 requests from airports in 
Montana, totaling more than $232 million.
    At the same time, the FAA is working to implement the $3.2 billion 
regular AIP grant program for fiscal year 2019, which must be obligated 
by the end of September 2019. This year's program also involves making 
changes in the entitlement formulas based on the FAA Reauthorization 
Act of 2018.
    The FAA hopes to begin making decisions on the remaining fiscal 
year 2018 supplemental funding later this spring, in close coordination 
with the regular fiscal year 2019 AIP grant program.
    Since 2013, the FAA has provided more than $233 million in AIP 
grants to Montana airports, including more than $59 million in 
discretionary funding.
                     helena approach control radar
    Question. As you likely know, Helena is one of only two FAA towers 
in the country that does not have approach control radar, and I am 
pleased to have secured language in FAA Reauthorization last Congress 
to finally secure that coverage.
    What is the status of getting that capability installed and 
operational?
    Answer. Consistent with Section 327 of the FAA Reauthorization Act 
of 2018, the FAA has undertaken an evaluation to identify airports that 
are currently served by FAA towers with nonradar approach and departure 
control services. Helena has been identified as one of those airports. 
We are now looking at the budgetary and flight volume considerations of 
providing Helena with approach control radar services. In moving 
forward, our considerations would include appropriate safety and 
efficiency evaluations.

                                 ______
                                 

               Questions Submitted by Senator John Hoeven
                   bismarck airport--radar relocation
    Question. As you know, the current stock of FAA airport 
surveillance radars is aging. Forty (40) of the Airport Surveillance 
Radar--8 (ASR-8) systems, which was originally fielded in the 1970's, 
currently remain in use, including at the Bismarck International 
Airport.
    In 2004, the FAA had scheduled to upgrade the ASR-8 in Bismarck to 
a digital ASR-11. However, in 2008, the Bismarck radar was cut from 
FAA's radar replacement program and the airport continues to operate 
the existing ASR-8 radar.
    Nevertheless, the City of Bismarck spent millions of dollars 
preparing a new radar site for development, and to this day desires the 
ability to move forward on future commercial development close to the 
airport without the existing radar-related impediments.
    While I understand that the FAA no longer has a contract to 
purchase new digital ASR-11 radar systems, will you, and the FAA, 
continue to work with me and the City of Bismarck to relocate the 
existing radar to a suitable location that will allow for commercial 
development near the airport?
    Answer. The FAA is committed to working with you and the city of 
Bismarck to relocate the existing radar. The FAA has not allocated 
funding for planning or implementation of this project because there is 
no operational requirement to relocate the existing radar at Bismarck. 
When an airport authority requires radars to be relocated, the work is 
typically funded by the airport authority through a reimbursable 
agreement. We have recently worked with airport authorities in New 
Orleans, Chicago, Greensboro, and Charlotte to relocate radars via 
reimbursable agreement. The FAA can work with you to develop an 
estimate for the cost of relocating the radar systems at Bismarck.
    The Bismarck facility consists of both an ASR-8 (primary radar) 
with an associated antenna and a Mode Select (beacon radar) with 
associated antenna. Relocating the primary and beacon radars systems 
requires a leapfrog strategy to provide required services for Air 
Traffic Control (ATC) operations during the transition period. By using 
this strategy, ATC operations would be maintained with minimal impact.
    The estimated timeline to perform necessary administrative, 
technical and contracting processes (i.e. selection of final Bismarck 
radar configuration, de-conflict site schedule, planning, radar siting 
study, engineering design package, acquisition of land and materials, 
etc.) is approximately 48 to 60 months to process and complete.
                          grand forks airport
    Question. As you are aware, we have a widespread pilot shortage. I 
have heard repeatedly from the heads of our Armed Forces--Air Force, 
Navy, and Army--as well as from the commercial airline industry--
particularly the regional airlines that service rural America--that we 
need more pilots.
    The University of North Dakota in Grand Forks is the premier 
institution for flight education and pilot training in the country. In 
fact, the Grand Forks International Airport that is home to UND's 
flight training, is consistently ranked as one of the top 25 busiest 
airports in the country. Last year alone, UND students flew over 
111,000 hours at the airport.
    In order to meet the need for more pilots, the Airport is in the 
process of finalizing their Airport Master Plan with the FAA, which 
will seek to expand the airports capacity significantly, to enhance 
safety, promote regional economic development, and increase pilot 
training capacity.
    Will you and the FAA continue to work with me and the Grand Forks 
Airport to ensure that the airport's Master Plan is finalized and the 
expansion project is greenlit so that we can continue to educate and 
train the future of our nation's pilot workforce?
    Answer. The FAA Office of Airports is working closely with the City 
of Grand Forks (the airport sponsor) and the University of North Dakota 
as the airport develops and implements their Airport Master Plan. The 
FAA provided comments on the master plan in August of 2018. The airport 
sponsor is reviewing our comments, making adjustments, and working to 
submit revisions to the master plan in April 2019. The FAA continues to 
work with the airport sponsor to identify a preferred development 
option and a corresponding funding plan, including identifying AIP 
eligible development as part of this overall plan.
    An environmental analysis (Environmental Assessment) will be 
required for any proposed airport expansion projects. This action will 
likely occur in late 2019 or early 2020.
    Question. Additionally, in last year's budget you requested $19.2 
million for the replacement of air traffic control tower facilities, 
and specifically allocated $1.8 million of that request for the design 
phase of a replacement Air Traffic Control tower at Grand Forks 
Airport. However, the fiscal year 20 request does not identify a 
request for construction funding for the control tower in Grand Forks.
    Can you provide me with a status update on the replacement of the 
Air Traffic Control tower at Grand Forks International Airport? When do 
you expect construction to begin?
    Answer. The Federal Aviation Administration plans to start design 
of the Grand Forks International Airport (GFK) airport traffic control 
tower in fiscal year 2020. The agency intends to request construction 
funding in a future budget year as the design matures.

                                 ______
                                 

                Questions Submitted by Senator Jack Reed
       labor displacement resulting automated vehicle technology
    Question. The widespread adoption of AV technology promises to 
significantly reduce roadway fatalities and accidents caused by driver 
error. However, numerous studies of the impending workforce impact 
resulting from this technological shift project the loss of hundreds of 
thousands of our nation's truck driving jobs. These concerns are 
compounded because many truck drivers may not have the skills needed 
for new jobs, live in areas where new jobs arise, or have bargaining 
power to protect their long-term employment.
    As part of $100 million provided for AV research and development, 
the fiscal year 2018 Omnibus included $1.5 million for your department 
to report on these potential workforce effects, the skills needed for 
workers to adapt, and whether existing Federal employment and training 
programs are sufficient to assist those displaced workers. Following 
last year's budget hearing, you committed to working with the 
Department of Labor (DOL) to finish this study; that report is now 
overdue.
    When do you intend to finish your analysis of the potential 
workforce impact of AV adoption and publish the results of that study?
    Answer. The Department of Transportation is working with the 
Department of Labor on this study to better understand the impacts that 
automated vehicles may have on the transportation sector and the 
related workforce. The first phase of the Workforce Study focuses on 
the long-haul trucking and transit bus sectors, while the second phase 
will be expanded to include a broader set of driving occupations and 
impacts to ancillary job categories. On March 20, 2019, the Department 
of Transportation hosted an in-person workshop with relevant 
stakeholders to receive their feedback on the study. We are in the 
process of taking this feedback, incorporating them into the study, and 
finalizing the report. The first phase of the study will result in a 
report to Congress, which is expected this summer.
    Question. In fiscal year 2018, Senator Collins and I also requested 
that the Government Accountability Office (GAO) produce a similar 
report. GAO recently released that report, finding that your department 
and DOL need to convene a key group of stakeholders to gather 
information on potential workforce changes, including needed skills and 
information gaps, as AV technology evolves and to further analyze those 
potential effects in order to inform any potential regulatory changes. 
GAO also noted with disappointment that your department only plans to 
finish its analysis with DOL, as was required in the fiscal year 2018 
Omnibus, and does not plan to continue convening key groups as this 
technology continues to evolve. However, in the most recent AV 
voluntary guidance, your department did note that a transition strategy 
needs to be developed to minimize adjustment costs for workers and to 
provide the help needed to allow each dislocated worker to find 
productive, high wage job opportunities.
    Should we establish a taskforce to review the workforce impacts 
stemming from AV adoption? Is your department committed to continuing 
to work with DOL and other relevant departments in order to ensure that 
these workers acquire skills needed to remain competitive in our 
economy and to have access to middle class jobs?
    Answer. The Department of Transportation has been a leader on the 
topic of automation, as well as its impact on the transportation sector 
and potential impacts to the American workforce.
    As part of our commitment to an open, transparent policy 
development process, the Department has focused on generating public 
comment through the Federal Register on our policy and regulatory 
initiatives, as well as by convening workshops as needed to gather 
stakeholder input. The Department has conducted numerous stakeholder 
events to ensure that the introduction of automated vehicles is done in 
a manner that both maximizes safety and ensures minimal disruption to 
society.
    We remain committed to engaging in a robust manner with numerous 
stakeholder groups, as well as with all relevant Federal Departments 
and Agencies, to ensure that the American people are positioned to 
succeed in an automated environment. As we continue this work, we will 
continue to assess the best mechanisms for involving and incorporating 
the feedback from the public and impacted stakeholders.

                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy
                              buy america
    Question. As part of the fiscal year 2019 Transportation 
Appropriations Bill, Congress included language directing FHWA to act 
on Buy America waiver requests within 60 days. While the merits of Buy 
America are clear, there are times when projects require materials for 
which there is no American-made alternative. Congress added this 
language to ensure that Federal funds will not be held in limbo while 
FHWA reviews waivers.
    Can you provide the Committee your assurance that this direction 
will be implemented?
    Answer. The Department takes Buy America very seriously and 
judiciously reviews each waiver requested. The Department notes that 
the Buy America waiver process, established by law, requires an 
informal public notice/comment period. This public notice and comment 
period is followed by the legal requirement to publish a Federal 
Register Notice formalizing the waiver decision.
                  airport improvement program funding
    Question. Terminals at the Nation's airports need billions of 
dollars in repairs in upgrades. Congress has appropriated significant 
funds to supplement the FAA's traditional allocation of AIP funds.
    Would you agree that terminals provide the space essential to 
ensuring security in air travel?
    Answer. The security aspect of terminal buildings is a critical 
function for air travel. Our partners at the Department of Homeland 
Security, specifically Transportation Security Administration (TSA) and 
to some extent Customs and Border Patrol are primarily responsible for 
passenger security. TSA funds the bulk of the equipment necessary for 
screening passengers and their baggage. However, the FAA does provide 
funding for terminal building projects to the extent permitted by 
statute under the Airport Improvement Program (AIP). During fiscal year 
2018, we provided more than $174 million in regular AIP funding, plus 
another $15.9 million from the supplemental appropriation, for 
passenger terminal projects. These projects included funding the 
passenger terminal building that TSA uses for screening passengers.
    The FAA's authorizing statute permits us to fund airport passenger 
terminals. Title 49 of U.S.C. Section 47119 specifically defines the 
types of terminal development projects eligible for AIP funding. The 
statute permits AIP funds to be used for passenger terminal projects, 
including multimodal terminal development, in nonrevenue-producing, 
public-use areas of a commercial service airport, provided specific 
requirements and conditions are met.
    From the FAA's perspective, safety is our mission. The AIP statute 
reflects this mission by placing a significant emphasis on projects 
that enhance an airports' airside safety for the benefit of both 
travelers and people and property on the ground near airports. The 
statute also places an emphasis on security of the airport; it permits 
AIP funding of airport perimeter security fencing, security cameras, 
and specific airport security equipment to include universal access 
systems and emergency call boxes.
    Question. Would you agree that terminals play an essential role in 
the travel experience for consumers?
    Answer. Terminals do play an essential role in the travel 
experience. They not only provide travelers with access from the 
landside to the airside of an airport, they also provide the critical 
nexus for a broad array of services, ranging from parking, rental cars 
and other types of ground transportation, concessions (including food, 
beverage and retail), security screening, baggage handling, and several 
other critical functions. In addition, the revenues generated within 
the terminal and ground transportation areas can be critical to 
supporting both capital and operating costs associated with other parts 
of the airport, including a safe, efficient airfield as well as land 
buffers and access and circulation roadways.
    Question. Would you agree that the commerce exchanged at terminals 
benefit both travelers and local economies?
    Answer. The commerce conducted at terminals is beneficial in 
numerous ways. Shops, restaurants, parking facilities, and concessions 
such as rental cars in the terminal buildings create a broad range of 
employment opportunities as well as direct and indirect economic 
benefits. Revenues at terminals also help to offset the costs of 
operating the airport, which may reduce airline operating costs.
    Question. Given the important role terminals play in security and 
air travel experience, would you support increasing the number of 
airports that could utilize this supplemental pot of funding to finance 
repairs and upgrades at their terminal buildings?
    Answer. We appreciate the supplemental $1 billion that Congress 
appropriated in fiscal year 2018, and the additional $500 million in 
fiscal year 2019, to help fund AIP-eligible and justified projects.
    From the FAA's perspective, safety is our mission. The AIP statute 
reflects this mission by placing a significant emphasis on projects 
that enhance an airports' airside safety for the benefit of both 
travelers and people and property on the ground near airports. FAA's 
2019--2023 NPIAS report includes estimated costs for projects needed to 
maintain safety (including reconstruction and airfield standards 
projects) that total more than $25.6 billion over this five-year 
period, or an annual average of more than $5 billion.
    Many airports (particularly the larger airports) have access to 
other funding sources to assist with their terminal and air travel 
experience projects--typically a combination of Passenger Facility 
Charge (PFC) revenues, other airport revenues, debt financing 
(typically in the form of long-term bonds), and (in certain 
circumstances) either airline or third-party investors including 
public-private partnerships.
                              build grants
    Question. Congress has appropriated billions of dollars for the 
TIGER and BUILD programs in recent years. Many of the awards from the 
program have funded large infrastructure projects on interstate and 
Federal highways. Our local communities have significant infrastructure 
needs as well.
    What steps is the Department taking to ensure that local, municipal 
projects are funded in the BUILD Program?
    Answer. The Department believes that local governments best know 
the infrastructure needs of their communities, and encourages local 
governments to submit BUILD applications that reflect those needs. The 
Department reaches out to local and municipal governments as part of 
the BUILD program's outreach and believes that awarding projects to a 
variety or local and regional governments is a hallmark of the program. 
My Department takes the needs of local communities very seriously, and 
we are fully committed to ensuring that local governments receive full 
consideration in future rounds of BUILD competition.

                                 ______
                                 

              Questions Submitted by Senator Patty Murray
                    capital investment grant program
    Question. The Capital Investment Grant (CIG) program is the primary 
Federal grant program to support transit investments in rapid rail, 
light rail, bus rapid transit, commuter rail, and ferries. I worked to 
include $2.644 billion, the highest ever annual appropriations, in the 
fiscal year 2019 Omnibus for CIG to support ongoing and new transit 
projects in Washington and throughout the nation. The fiscal year 18 
and fiscal year 19 Budget Requests reduced funding for the CIG program, 
despite Congress's bipartisan commitments of support over the last 
several years. The Omnibus directs DOT to obligate $2.2 billion of this 
funding by Dec. 2019, and to continue to administer the CIG program 
according to current law. Though the Administration did better on CIG 
in fiscal year 2020 by including $100 million for Lynnwood Link to 
reflect the FFGA signing in December and nearly $500 million for 
projects that are expected to sign FFGAs in fiscal year 2020 (fiscal 
year 2018 and fiscal year 2019 requests eliminated CIG), DOT still must 
ensure that projects are moving in a timely fashion.
    Specifically, I want to flag for you a few projects in Washington 
state:

  --Sound Transit (ST): In December FTA signed the Lynnwood Link FFGA, 
        which commits the FTA to provide 36.0 percent of the funding. 
        The Lynnwood Link has received $100 million in the fiscal year 
        2017 Omnibus; and FTA apportioned an additional $100 million in 
        the fiscal year 2018 Omnibus. The fiscal year 2019 
        apportionments have not yet been made by the Administration.

  --Sound Transit (ST): Building on the Lynnwood Light Rail FFGA, the 
        Federal Way Link Light Rail extension will extend Light Rail 
        from Angle Lake station in SeaTac south to Federal Way. The 
        Federal Way Extension is requesting only a 25 percent Federal 
        share, which is the lowest Federal share in the Capital 
        Investment Grant pipeline. The project is utilizing a design 
        build construction model that will allow ST to submit for a 
        Full Funding Grant Agreement shortly after receiving 
        Engineering Authority. The fiscal year 2020 New Starts Report 
        included a medium-high rating for the extension. Sound Transit 
        submitted for Engineering Authority on October 11th and was 
        expected to receive that authority in December. However, we are 
        still awaiting Engineering approval at present, and without 
        Engineering approval, ST is unable to submit the FFGA 
        documentation. This is problematic for two main reasons. First, 
        any delay to the project threatens the schedule and budget of 
        the project and with the Federal share locked, any costs due to 
        delay will be borne by Sound Transit. Second, the Federal Way 
        Extension represented the fourth and last TIFIA loan to close 
        under Sound Transit's Master Credit Agreement. Statutorily that 
        loan must close by mid-December of 2019 and FTA's practice is 
        to only close concurrent with the Federal Way Link Extension 
        FFGA signing.

    Question. Secretary Chao, this year's budget request states that 
the Capital Investment Grant Program should focus on projects with high 
non-Federal funding commitments. Currently, Sound Transit in Washington 
state is working with the Federal Transit Administration to advance the 
Federal Way Link Extension to a full funding grant agreement this 
fiscal year. That project is requesting only a 25 percent Federal share 
and Sound Transit's total capital budget calls for a total Federal 
share of just 16 percent.
    Can you confirm this is the type of project that meets the 
Administration's criteria? And if not, can you please explain why?
    Answer. The proposed Capital Investment Grants (CIG) share for the 
Federal Way project is indeed the lowest share proposed of any project 
currently in the CIG program, although the dollar amount represented by 
that percentage share is larger than most awards at $790 million. In 
addition to the CIG grant funding being proposed, the project is 
anticipating using $18 million in other Federal formula grant funds and 
seeking a USDOT TIFIA loan of $629 million. The Department has been 
very supportive of Sound Transit and its financing approaches for 
multiple projects, including awarding the Lynnwood Link Full Funding 
Grant Agreement just a few months ago that includes $1.17 billion in 
CIG funding and a $657 million USDOT TIFIA loan.
    Question. Secondarily, Sound Transit has submitted to enter into 
the Engineering phase on the Federal Way Link Extension in early 
October 2018 and has been awaiting approval to enter this next phase 
since December.
    In order to maintain the budget for this 25 percent Federal share 
project, it is essential that the project stay on schedule.
    I would appreciate an update on when I can expect that authority to 
be forthcoming and the expected schedule for the full funding grant 
agreement execution.
    Answer. The Federal Transit Administration approved the Federal Way 
project into the Engineering phase of the Capital Investment Grants 
program on April 11, 2019. Sound Transit anticipates meeting the 
requirements for receipt of a Full Funding Grant Agreement before the 
end of 2019.
                          meal and rest breaks
    Question. On Dec. 21, the Federal Motor Carrier Safety 
Administration (FMCSA) sided with the American Trucking Association 
(ATA) in determining that California state laws on meal and rest break 
requirements are preempted by Federal law. The decision by FMCSA defies 
logic, particularly in light of the fact that arguments in support of 
preemption in this instance have been rejected previously by: the U.S. 
Department of Transportation (the Department), in response to a nearly 
identical request by the trucking industry in 2008; the courts, 
including the U.S. Court of Appeals for the Ninth Circuit and the U.S. 
Supreme Court (which declined to hear appeals in multiple cases); and 
Congress, despite multiple opportunities since 2015, including periods 
with Republican majorities in both the U.S. House of Representatives 
and the U.S. Senate.
    Washington state is one of 20 states and territories that require 
motor carriers to provide minimum meal and rest breaks to truck 
drivers. Unfortunately, these laws are now jeopardized by FMCSA's 
ruling. This is a matter of critical importance, and it stands to have 
a dramatic impact on the rights of states like mine to protect the 
safety of the public, our highway system, and the well-being of 
commercial truck drivers.
    Why has the Department chosen to abandon its own position, to 
disregard the will of Congress, and ignore court precedent in order to 
side with the ATA?
    Answer. FMCSA believes that its decision preempting California's 
MRB rules, as applied to drivers of property-carrying commercial motor 
vehicles (CMVs) subject to FMCSA's hours or service (HOS) regulations, 
is an important step toward creating a more reliable and consistent 
regulatory environment for truck drivers. A consistent set of rules 
directly benefits drivers, consumers, small businesses, and the 
American economy.
    As FMCSA explained in its December 28 Federal Register notice (83 
FR 67470), the California meal and rest break rules (MRB rules) are 
State laws or regulations ``on commercial motor vehicle safety,'' to 
the extent they apply to drivers of property-carrying CMVs subject to 
the HOS rules. The MRB rules are in addition to or more stringent than 
the HOS rules; they have no safety benefit beyond what the Federal 
Motor Carrier Safety Regulations provide; they are incompatible with 
the HOS rules; Enforcement of the MRB rules causes an unreasonable 
burden on interstate commerce. Accordingly, the MRB rules meet all the 
statutory requirements for preemption pursuant to 49 U.S.C. 31141.
    The December 2018 determination acknowledged that it represents a 
change in the Agency's prior position as articulated in the 2008 
Decision and in the government's amicus brief in Dilts v. Penske 
Logistics, LLC, No. 12-55705 (9th Cir. 2014), that the MRB rules are 
not regulations ``on commercial motor vehicle safety.'' In its 2008 
decision and in Dilts, the Agency reasoned that because the MRB rules 
apply to employers in other industries in addition to motor carriers, 
the provisions were not within the scope of the Secretary's preemption 
authority under section 31141. It should be noted that in Dilts, the 
United States Court of Appeals for the Ninth Circuit, made no 
determination concerning whether the MRB Rules were preempted pursuant 
to section 31141; rather, the court determined that they were not 
preempted under the Federal Aviation Administration Authorization Act 
of 1994, 49 U.S.C. 14501(c).
    In its recent decision, FMCSA provided a detailed explanation of 
its reasons for reevaluating and changing the position it took in 2008. 
FMCSA reexamined provisions of the Motor Carrier Safety Act of 1984 and 
concluded that Congress intended that there be as much uniformity as 
practicable whenever a Federal standard and a State requirement cover 
the same subject matter, such as the MRB rules and the HOS regulations. 
See S. Rep. No. 98-424, at 14 (1984). The Agency's determination is 
also supported by the December 2011 revisions to the Federal HOS 
regulations, which added a mandatory rest period.
    Having determined that the MRB rules are within the scope of the 
Secretary's preemption authority under section 31141, the Agency 
granted the petitions to ensure uniform and consistent rules in order 
to promote safety and economic growth and to protect drivers and 
consumers. Safety is FMCSA's top priority, and the Agency believes that 
making uniform rules for interstate carriers, where possible, is a key 
component to increasing safety on the roads. In addition, different 
rules in different states adds needless burdens on drivers--many of 
whom are small businesses fighting to make ends meet in a competitive 
market.
    The International Brotherhood of Teamsters (IBT), two IBT locals, 
several drivers, and the State of California have filed petitions for 
review in the Ninth Circuit challenging FMCSA's determination. Since 
the December 2018 decision, the American Bus Association filed a 
petition seeking preemption of California's MRB rules for passenger-
carrying CMV drivers, and the Washington Trucking Associations also 
petitioned the Agency to preempt Washington State's meal and rest break 
rules for CMV drivers. Both petitions are under review.

                                 ______
                                 

            Questions Submitted by Senator Richard J. Durbin
                             boeing 737 max
    Question. Secretary Chao, in the wake of the two recent crashes 
involving the same Boeing aircraft model, the public deserve more 
transparency about the FAA's safety certification process. In written 
testimony before the Commerce Committee today, DOT's inspector general 
said ``while revamping FAA's oversight process will be an important 
step, continued management attention will be key to ensure the agency 
identifies and monitors the highest-risk areas of aircraft 
certification.''
    Do you agree that increased attention by FAA management is key to 
identifying these issues before problems occur? If FAA management is so 
important to FAA's safety certification process, why did the President 
wait 14 long months before nominating a new head of the FAA, and what 
does that say about this Administration's dedication to safety?
    Answer. Management attention to oversight processes has always 
been, and continues to be, very strong. The effectiveness of the FAA's 
robust aircraft certification and safety oversight systems do not 
depend on any one individual or group of individuals. Managers and all 
other employees within the FAA play essential roles in identifying and 
resolving safety issues wherever they may potentially or actually 
appear.
    That being said, the FAA is under the strong leadership of Acting 
Administrator Elwell, who was previously FAA's head of policy from 2006 
to 2008. Mr. Elwell served as a military and airline pilot as well as 
in a variety of industry leadership positions before being appointed 
FAA Deputy Administrator by President Trump. He is a dedicated, life-
long safety professional who has served the agency and the flying 
public very well in his tenure as Acting Administrator.
    Question. In the last week, I've sent letters to both the FAA and 
Boeing asking questions about the decisions involved with qualifying 
certain important safety features on their Max series aircraft as 
options only available to airlines at an additional cost. Recent 
reports indicate that Boeing will now make at least one of those 
previously optional safety features standard on their aircraft in the 
wake of these tragic crashes.
    I understand that DOT is currently involved in ongoing 
investigations not only into the cause of the two recent crashes but 
also into the FAA's role in certifying these planes as safe to fly, but 
can you confirm that the FAA will require Boeing to add an additional 
safety feature to the 737 Max 8 series that the FAA previously 
determined was not required to be standard? If so, why was this safety 
features not originally required by the FAA to be included on all Max 
series aircraft?
    Answer. Required safety standards and features for large aircraft 
are established in 14 CFR part 25 (``Airworthiness Standards: Transport 
Category Airplanes''). Features required to meet those safety standards 
are mandatory on all FAA-certified aircraft, including the Boeing 737 
MAX. There are no optional safety standards or features.
    Question. What testing and data from the manufacturer is required 
by the FAA to justify a manufacturer's decision to qualify a safety 
feature as merely optional?
    Answer. FAA regulations (14 CFR Part 25) prescribe safety 
requirements an applicant must meet. They are not optional.
                      amtrak long distance service
    Question. Secretary Chao, among the significant cuts to 
infrastructure that were outlined in the President's fiscal year 20 
budget request, the most troubling for many of my constituents in 
Illinois is the Administration's proposal to slash funding for Amtrak's 
long distance service. Amtrak operates 15 long-distance routes across 
the nation. These trains offer the only Amtrak service in 23 of the 46 
states Amtrak serves. Eight of Amtrak's 15 long distance trains run 
through Illinois. If Congress went along with President Trump's 
proposal, passenger rail service in Illinois would be significantly 
reduced, hurting thousands of Illinois students, seniors, and rural 
riders, who depend on this service the most. For many in Illinois, 
Amtrak's long-distance service provides them with the only affordable 
access they have to their jobs, to their schools, to their healthcare 
facilities, and to their families.
    Secretary Chao, please explain to me how President Trump's proposal 
to cut this vital passenger rail service will benefit the people of my 
state, especially those living in rural areas?
    Answer. The fiscal year 2020 President's Budget proposes to begin 
restructuring Amtrak's Long Distance network, phasing decisionmaking 
and cost responsibilities to the states over a four-year period via 
transition assistance through the Restoration and Enhancements grant 
program. This proposal empowers states such as Illinois to work with 
Amtrak and other potential operators to define the corridors, services, 
and markets that best meet the demands of their residents and 
interests.
    The operating and financial performance metrics for Amtrak's Long 
Distance routes illustrate a struggling business model in need of 
reform, with its fundamental problem being the inability to meet 
customer expectations and demand. Markets served via Long Distance 
routes, including those in rural areas, suffer infrequent service at 
inconvenient times that are often significantly delayed. The 
substantial Federal resources required to operate the existing Long 
Distance network--nearly $550 million in annual operating costs, 
hundreds of millions of dollars annually for capital maintenance and 
upgrades, and a looming multi-billion dollar equipment replacement 
need--do not provide a justifiable return on investment.
    The eight shorter-distance State-Supported routes that operate 
within Illinois and into neighboring states carry more passenger 
annually (2.6 million) than the entirety of the eight Long Distance 
services that traverse portions of the state (2.4 million), while 
costing taxpayers significantly less in Federal subsidies (less than $1 
million for State-Supported routes vs. nearly $300 million for the 
Illinois-served Long Distance Routes). The Federal Government, Amtrak, 
states, localities, and private sector partners should focus investment 
in existing and new State-Supported corridors that provide better 
performance and more relevant transportation choices for passengers.
    Question. The budget also calls for states to cover more of the 
costs of Amtrak service, which sounds a lot like the President's 
approach to infrastructure funding.
    Do you think it's realistic to propose that already cash-strapped 
states should be footing more of the bill when it comes to Amtrak 
service?
    Answer. The Restoration and Enhancement Grant funding will provide 
transition assistance to states as they assume control over their 
regional corridor services, covering 100 percent of net operating costs 
in fiscal year 2020, 80 percent of net operating costs in fiscal year 
2021, 60 percent of net operating costs in fiscal year 2022, and 40 
percent of net operating costs in fiscal year 2023. The phasing down of 
this funding is in recognition that major changes to intercity 
passenger rail service patterns can take time to build a ridership base 
and generate sufficient revenues against the service's capital and 
operating costs. By fiscal year 2024, states will assume full 
responsibility for all operating costs associated with their new 
services.
    States are encouraged to apply with Amtrak for this funding in 
fiscal year 2020 so they can begin to make informed decisions about 
their routes and the elements they value to continue operating in the 
future. During this time, the Department of Transportation, Amtrak, 
states, and affected local governments will collaborate to rationalize 
the Long Distance network to more efficiently serve modern market needs 
as a series of shorter-distance, high-performing corridor services.
    While the fiscal year 2020 President's Budget proposes to phase out 
Federal operating support for Long Distance services, the proposal also 
includes $330 million in funding under the Consolidated Rail 
Infrastructure and Safety Improvements Program in part to assist states 
in funding capital improvements required to upgrade services on these 
new state routes. The fiscal year 2020 President's Budget also proposes 
to continue funding the portion operating costs on the higher-
performing State-Supported services that are not covered by annual 
state payments ($94 million in fiscal year 2018).
                         build grants & transit
    Question. I was disappointed to see that the Administration is 
calling for a $1 billion cut to transit grants when there is such a 
tremendous need for expanding and modernizing public transit around the 
country. At the same time, this Administration is largely ignoring the 
growing needs of transit systems when it comes to TIGER/BUILD grants. 
Less than 10 percent of TIGER/BUILD funding went to transit projects in 
fiscal year 18, up from less than 4 percent of TIGER/BUILD funding in 
fiscal year 17. By comparison, 24 and 29 percent of TIGER funding went 
to mass transit projects in the last 2 years of the Obama 
Administration. As a member of this panel who was here when the TIGER 
program was created, I can assure you that it was Congress's intention 
to have a more balanced and representative set of projects selected 
from various modes.
    Why does this Administration continue to ignore bipartisan support 
in Congress for increased funding for transit projects?
    Answer. As you know, the BUILD discretionary grant program is 
extremely competitive. In the last round of BUILD, the Department 
received 851 eligible applications--almost twice the amount of 
applications from the previous round. Approximately 12 percent of the 
awarded projects were transit projects, which is roughly proportional 
to the number of transit applications the Department received for this 
BUILD round. The Department continues to take measures to ensure 
investment in a variety of transportation modes.
                         positive train control
    Question. Secretary Chao, you've made a point of touting the 
progress that railroads have made under your watch towards implementing 
positive train control (PTC) safety technology. Metra, the commuter 
railroad that serves the Chicago region, remains on track to have PTC 
fully operational on all its lines by 2020 despite the enormous costs 
involved. PTC will cost Metra more than $400 million to implement and 
is expected to add $15-20 million annually to Metra's operating costs. 
Without adequate Federal funding, implementing PTC has come at the 
expense of other Metra capital and safety improvements.
    If this safety technology is a priority for DOT, would this 
Administration support a new grant or funding program in the upcoming 
surface transportation reauthorization to help commuter railroads 
afford the operating costs of PTC?
    Answer. Safety is our number one priority at DOT. Positive Train 
Control vastly improves rail safety and we look forward to full PTC 
implementation in 2020, as required by Congress. DOT has supported PTC 
implementation extensively since the original 2008 mandate--providing 
guidance, alternative schedules, and over $2.5 billion in funding for 
freight, intercity, and commuter railroads to implement PTC through 
numerous grant and loan programs. We appreciate the dedication and 
investment the rail community has committed to this life saving 
technology.
    The Department's priority for PTC is getting systems operational by 
the 2020 deadline and we will continue to engage, support, and monitor 
railroads efforts to meet the mandate. As PTC systems come on line, DOT 
will continue strong oversight of rail operations to ensure railroads 
operate safely and properly maintain all components, including PTC.
                                 low-no
    Question. The FTA's Low or No Emission (Low-No) Program helps 
transit agencies of all sizes, including small and rural agencies, 
deploy emerging technology buses and charging infrastructure. But this 
Administration has consistently awarded these grants including one to 
Champaign-Urbana in Illinois in amounts that are often lower than the 
cost of just one bus. Small and rural transit agencies, in particular, 
have a difficult time making up the funding differential, effectively 
preventing them from initiating their projects and leaving them far 
behind larger transit agencies when it comes to implementing clean 
technologies. I understand that there is only so much funding to go 
around, but FTA needs to distribute these funds more effectively.
    Can you commit to instructing the FTA to ensure that Low-No grant 
awards will be at levels that are adequate for transit agencies to 
initiate their projects? Also, can you explain to why the FTA will now 
prohibit partnerships with non-profit project managers on these 
projects, which are especially useful for cash-strapped small and rural 
transit agencies wanting to deploy new technology buses?
    Answer. The Low or No Emission (Low-No) competitive program has 
historically been oversubscribed by a wide margin. In fiscal year 2018, 
the amount requested by applicants was almost seven times greater than 
the $84 million of funding appropriated by Congress. In making funding 
decisions for all competitive programs, the FTA ensures a project can 
be completed with the amount awarded, including any local matching of 
funds.
    The Low-No Program is the FTA's only grant program that allows 
agencies to partner with third party entities to execute projects, thus 
fulfilling the third-party procurement requirement. Requiring a 
competitive procurement for the Low-No program will comply with Federal 
requirements for a full and open competition and bring the program in 
line with the FTA's other grant programs.
    Rural and small urban entities that are interested in transitioning 
to a Low or No Emission propulsion technology can receive technical 
assistance from the FTA sponsored program manager at CALSTART and from 
the federally funded National Rural and Technical Assistance Program.
    The Department and FTA value the relationship and collaboration we 
have with the industry and will continue to provide both technical 
assistance and funding opportunities to support public transportation.
                             vehicle safety
    Question. The Administration has proposed reducing NHTSA's vehicle 
safety program by $49 million (26 percent) from the agency's 2019 
budget. The FAST Act authorized $214,073,440 for NHTSA's vehicle safety 
program for fiscal year 2020. The Administration's request is $63 
million less than the Congressional authorization.
    In addition, under the Administration's proposal the enforcement 
budget which supports the agency's efforts to identify safety recalls 
and ensure new vehicles meet Federal safety standards will be cut by 
$13.5 million (40.9 percent) The rulemaking budget will be cut by $2.4 
million (9.6 percent). Deaths and injuries on our Nation's roads remain 
unacceptably high. Each day on average, over 100 people are killed and 
8,500 more are injured in motor vehicle crashes.
    Moreover, today, 95 percent of transportation-related fatalities, 
and 99 percent of transportation injuries, involve motor vehicles. This 
is a public health epidemic by any measure and most certainly would not 
be tolerated in any other mode of transportation, yet, NHTSA receives 
only 1 percent of the overall DOT budget. According to NHTSA, roughly 
41.6 million vehicles equipped with 56 million defective Takata air 
bags are under recall because these air bags can explode when deployed, 
causing serious injury or death.
    Moreover, additional safety recalls of Takata airbags continue to 
be issued by NHTSA. Additionally, as Secretary Chao has publicly 
acknowledged, the U.S. Department of Transportation and NHTSA are 
facing even greater responsibilities and challenges as autonomous 
vehicles, also known as driverless cars, are developed and deployed. 
NHTSA has failed to meet several mandated deadlines set by Congress in 
the 2012 Moving Ahead for Progress in the 21st Century (MAP-21) Act 
(Public Law 112-141) to issue regulations requiring rear seatbelt 
reminders, updating lower anchorages and tethers for children (LATCH) 
systems for child occupants and to improve occupant protection in 
motorcoaches.
    The Administration's budget request for DOT includes a $49 million 
reduction in funding for NHTSA's vehicle safety program. Included in 
this cut is a 40 percent reduction in funding for the agency's 
enforcement budget which supports NHTSA's efforts to identify safety 
recalls and ensure new vehicles, such as new driverless cars, meet 
Federal safety standards. In addition, the agency's rulemaking budget 
will be cut by over $2 million.
    At a time when Americans are experiencing safety recalls of 
millions of vehicles including the deadly Takata airbag fiasco, do you 
not have concerns about how can the agency will be able to meet its 
mission to protect the public given the drastic cuts the Administration 
is proposing to NHTSA's enforcement budget? Would you please share with 
the Committee the Department's plan to make up for this potential 
reduction of resources?
    Answer. The President's budget request for the National Highway 
Traffic Safety Administration (NHTSA) has held steady in recent fiscal 
years. Additional funding authorized and appropriated by Congress in 
fiscal year 2018 and 2019 has helped to support the Agency's work to 
modernize information technology systems used to manage vehicle safety 
recalls.
    As you know, NHTSA's mission is to save lives, prevent injuries, 
and reduce economic costs due to road traffic crashes, through 
education, research, safety standards, and enforcement activity. The 
fiscal year (FY) 2020 President's Budget requests $929 million to 
support NHTSA's full spectrum of vehicle and behavioral safety 
activities, including $151 million for Vehicle Safety, $155.3 million 
for Highway Safety Research and Development, and $623 million for 
Highway Traffic Safety Grants. These resources will enable NHTSA to 
further influence driver behaviors to reduce injuries and fatalities on 
our roadways, continue its efforts in rulemaking, enforcement, and 
vehicle research, and develop and implement data-driven, workable, and 
self-sustaining highway safety programs.
    Regarding enforcement and safety recalls specifically, the fiscal 
year 2020 budget request includes resources to ensure NHTSA fulfills 
its critical enforcement goals and objectives, including ongoing 
oversight of the Takata air bags safety recall, one of the largest and 
most complex recalls in history.
    Question. Is it wise to cut NHTSA's rulemaking budget by over $2 
million at a time when the agency is woefully behind in issuing safety 
rulemakings that were directed by Congress in 2012 including those that 
would enhance safety for children and motorcoach passengers? Would you 
please share with the Committee the Department's plan to make up for 
this potential reduction of resources?
    Answer. The fiscal year 2020 budget requests approximately $2.4 
million less for NHTSA's Office of Rulemaking. Nearly all of that 
reduction is attributed to its New Car Assessment Program (NCAP). The 
key performance indicator for NCAP is the percentage of new vehicles 
rated by NCAP for a given model year vehicle fleet. Because of 
variations in the new vehicle fleet, funding levels vary from year to 
year in order to maintain a high percentage of rated vehicles. NHTSA 
expects to fulfill its rulemaking goals and objectives--including 
testing and rating a substantial percentage of the new vehicle fleet in 
the NCAP program--with the resources requested in the fiscal year 2020 
budget.
                        rear seatbelt rulemaking
    Question. The majority of passengers in the rear seats of vehicles 
are children and teens, and studies have shown that seat belt usage by 
teens is among one of the lowest segments of society. Congress directed 
NHTSA to issue a final rule requiring rear seat belt reminders in all 
new motor vehicles by October 2015 in Section 31503 the Moving Ahead 
for Progress in the 21st Century (MAP- 21) Act (Public Law 112-141).
    The February 2019 Department of Transportation Significant 
Rulemaking Report (the latest report available) indicates that NHTSA 
plans to issue a notice of proposed rulemaking in May 2019. However, 
the agency has rarely met such target dates.
    Unbelted rear seat passengers pose a serious threat to the driver 
and other vehicle occupants. Known as ``back seat bullets,'' unbelted 
rear seat passengers can be thrust at high rates of speed into other 
occupants, causing fatalities and serious injuries, as well as loss of 
control of the vehicle. The risk of death for a belted driver seated 
directly in front of an unrestrained passenger in a serious head-on 
crash more than doubles than if seated in front of a restrained 
passenger. Seat belt use in the rear seat is especially crucial as the 
safety infrastructure built into the vehicle is not as developed in the 
rear seat as it is in the front seat.
    NHTSA reports the proportion of unrestrained passenger vehicle 
occupants killed that were seated in the front seat was 46 percent, 
compared to 56 percent of unrestrained passenger vehicle occupants 
killed that were seated in the rear seat (NHTSA). Rear seat belt 
reminders are standard equipment on several models tested by the Euro 
New Car Assessment Program (Euro NCAP). Congress directed NHTSA, as 
part of MAP-21, to issue a final rule requiring rear seat belt 
reminders in all new motor vehicles by October 2015, but the agency has 
yet to issue even a notice of proposed rulemaking.
    With 56 percent of unrestrained passenger vehicle rear seated 
occupants killed, what is the reason for the egregious delay? Can you 
assure the Committee that NHTSA will meet its own, most recent deadline 
for issuing a notice of proposed rulemaking in May 2019? Can you also 
assure the Committee that a final rule will be issued with expediency 
thereafter?
    Answer. One of the safest choices drivers and passengers can make 
is to buckle up. As part of NHTSA's mission to help Americans drive, 
ride and walk safely, the Agency works to educate Americans about how 
to protect themselves and others on the road through public service 
campaigns such as Buckle Up America, Never Give Up Until They Buckle Up 
(promoting `tween' seat belt use), and Click It or Ticket, (associated 
with increased seat belt enforcement periods supported by State and 
local law enforcement across the country). NHTSA research has further 
informed strategies to improve seatbelt use, including a program in 
which education by trauma nurses is shown to improve drivers' positive 
outlook regarding seatbelt use.
    NHTSA estimates that 14,955 lives were saved by seatbelt use in 
2017. A 2008 NHTSA research note, States With Primary Enforcement Laws 
Have Lower Fatality Rates (Updated) (NCSA, 2008), suggested that seat 
belt use among killed occupants was at least 13 percentage points 
higher in States with primary enforcement laws. In addition, results 
from the annual National Occupant Protection Use Survey (NOPUS) have 
found that seat belt use in primary law States is consistently higher 
than use in States with secondary laws or no law (90.9 percent versus 
85.7 percent, respectively, in 2017).
    In June 2010, NHTSA published a request for comments notice on rear 
seat belt reminder systems. The agency is currently working on a notice 
to address this provision in Section 31503 of MAP-21. The timing for 
completion of the rulemaking process will be determined following the 
public comment period.
                           motorcoach safety
    Question. Americans make hundreds of millions of trips on inter-
city motorcoaches each year. Over the past few decades, safety problems 
identified as a result of motorcoach crashes prompted the National 
Transportation Safety Board (NTSB) to issue numerous motorcoach safety 
recommendations following in-depth crash investigations.
    Based on the NTSB safety recommendations, the Motorcoach Enhanced 
Safety Act of 2012, part of MAP-21, requires that a number of 
regulations must be issued by NHTSA to improve motorcoach safety. Two 
of these provisions, one to improve the structural integrity, i.e., the 
roof strength or crush resistance of motorcoaches, and the other to 
prevent passengers of motorcoaches from being ejected through windows 
during a crash, are long overdue, as NHTSA has missed the deadlines 
mandated by Congress in MAP-21.
    The February 2019 Department of Transportation Significant 
Rulemaking Report (the latest report available) indicated that NHTSA 
plans to issue a final rule for the structural integrity rulemaking in 
June 2019. The agency has not provided any further dates for the 
ejection rulemaking. The motorcoach safety regulations in MAP-21 were 
sponsored by both Republican and Democratic members of the Senate and 
the House and supported by industry and safety advocates as well as 
crash victims and their families.
    Congress directed NHTSA, as part of MAP-21, to issue a number of 
regulations to improve the safety of motorcoaches. Specifically, the 
agency was required to issue rules to improve the structural integrity 
of motorcoaches and to prevent passengers from being ejected. Both of 
these rulemakings were required to be completed by October 2014. Both 
rulemakings are long overdue to the unnecessary peril of motorcoach 
passengers.
    What is the reason for the egregious delay? Can you assure the 
Committee that NHTSA will meet its own, most recent deadline for 
issuing a final rule for the structural integrity rulemaking in June 
2019?
    Answer. NHTSA is working to improve motorcoach safety in the United 
States.
    In addition to the 2013 final rule requiring seat belts on all 
motorcoaches and large buses and the 2015 final rule requiring 
electronic stability control on these vehicles, NHTSA published a 2014 
notice of proposed rulemaking applicable to motorcoaches and other 
large buses which proposed requirements for improved structural 
integrity to maintain occupant survival space in a rollover. NHTSA is 
currently working on the final rule.
    Question. NHTSA issued a notice of proposed rulemaking regarding 
emergency exits, window retention and release and anti-ejection glazing 
portals for motorcoaches in May 2016 but has not taken any further 
regulatory action. In fact the rulemaking no longer appears on the 
agency's regulatory agenda.
    What is the status of this rulemaking and what is the reason for 
this egregious delay?
    Answer. NHTSA published a 2016 notice of proposed rulemaking 
applicable to motorcoaches and other large buses that included 
requirements for advanced glazing on windows and other portals to 
mitigate occupant ejections. NHTSA is evaluating next steps for this 
rulemaking.
                            latch rulemaking
    Question. Motor vehicle crashes are a leading cause of death for 
American children age five to 14. When children are properly 
restrained, their chance of being killed or seriously injured in a car 
crash is greatly reduced. According to NHTSA, when used properly, child 
safety seats reduce fatal injury by 71 percent for infants and 54 
percent for toddlers in passenger cars.
    Nearly 325 lives were saved in 2017 by restraining children four 
and younger in passenger vehicles. Congress, as part of MAP-21, 
required NHTSA to issue a final rule to improve the ease of use of the 
Lower Anchors and Tethers for Children (LATCH) systems in rear seating 
positions by October 2015. The proposed rule was issued in January of 
2015, but the agency has taken no further action.
    In the February 2019 Significant Rulemaking Report (the latest 
report available) NHTSA does not provide a target date to issue a final 
rule. Congress directed NHTSA, as part of MAP-21, to issue a final rule 
to improve the ease of use of the Lower Anchors and Tethers for 
Children (LATCH) systems in rear seating positions by October 2015, but 
the agency has yet to meet this deadline.
    What is the reason for the egregious delay? Please provide this 
Committee with an update on the status of this rulemaking. Can you 
assure the Committee that NHTSA will complete this rulemaking within 1 
year?
    Answer. In response to the 2015 notice of proposed rulemaking for 
improving the ease-of-use of child restraint anchorage systems, NHTSA 
received public comments on the repeatability and reproducibility of 
the proposed requirements and criteria. Subsequently, NHTSA initiated 
research to address several technical matters identified by commenters. 
This research was just completed in 2018. NHTSA is considering the 
results in deciding on the appropriate next steps.
                       utomatic emergency braking
    Question. Based on NHTSA data from 2003 through 2008, large trucks 
are the striking vehicles in approximately 32,000 rear-end crashes 
resulting in 300 fatalities and injuring over 15,000 people annually.
    Automatic Emergency Braking (AEB) systems can mitigate or prevent 
many of these crashes. AEB provides a warning to the driver if the 
truck comes too close to another vehicle in front of the truck, and can 
then automatically apply the brakes if the driver fails to do so. NHTSA 
estimates that advanced AEB systems could save 166 lives per year, a 
reduction of 57 percent from current annual fatalities, and prevent 
8,361 injuries per year, a reduction of 56 percent, in certain types of 
crashes.
    In October 2015, NHTSA granted a petition for rulemaking seeking 
the issuance of a rule to require AEB on all commercial motor vehicles 
with a gross vehicle weight rating (GVWR) of 10,000 lbs. or more. The 
petition was filed by the following safety organizations: Advocates for 
Highway and Auto Safety, the Center for Auto Safety, the Truck Safety 
Coalition and Road Safe America. However, the agency has yet to take 
any further regulatory action.
    In October 2015, NHTSA granted a petition for rulemaking filed by 
several safety organizations seeking the issuance of a rule to require 
Automatic Emergency Braking (AEB) on all commercial motor vehicles with 
a gross vehicle weight rating (GVWR) of 10,000 lbs. or more. However, 
in the more than 3 years since granting the petition for rulemaking, 
the agency has not undertaken any regulatory actions.
    Please provide this Committee with an update on the agency's work 
in this area since granting the petition and a date certain by which 
the agency will issue a proposed rule.
    Answer. NHTSA has researched forward collision avoidance systems in 
commercial vehicles over the past several years. In 2016, NHTSA 
completed the first phase of a field operational test (real-life 
testing) that examined hundreds of drivers operating trucks from 
different manufacturers equipped with AEB and lane departure warning 
technologies. In 2018, NHTSA commenced a second phase of a field 
operational test to account for major technological improvements. This 
second phase will examine the real-world performance of current 
generation AEB systems that offer improved detection, greater precision 
and new features, such as stationary object braking. Once this research 
and field testing is completed, NHTSA will determine next steps.
    Furthermore, regarding the light-duty vehicle fleet, the Agency has 
closely coordinated with 20 auto manufacturers and the Insurance 
Institute for Highway Safety (IIHS) to advance AEB safety technology 
through a voluntary commitment to equip virtually all new light-duty 
cars and trucks with a gross vehicle weight of 8,500 pounds or less 
with a low-speed AEB system that includes forward collision warning 
(FCW) and crash imminent braking (CIB) to help prevent and mitigate 
front-to-rear crashes.
    Ten automakers already report equipping more than half of the 
vehicles they produced between September 1, 2017, and August 31, 2018, 
with AEB. Based on reporting by the 20 manufacturers that made the 
commitment, about half of the vehicles produced during the period were 
equipped with AEB.
    The 10 manufacturers include many high-volume automakers such as 
Honda, Nissan and Toyota. Three manufacturers--Mercedes-Benz, Tesla and 
Volvo--report 93 percent or higher conformance with the voluntary 
commitment, with Tesla at 100 percent.
                          crisi grant program
    Question. The budget proposes $330 million for the Consolidated 
Rail Infrastructure and Safety Improvement (CRISI) Grants program. This 
is above the fiscal year 19 enacted level of $255 million and equal to 
the authorized fiscal year 20 level. The budget also provides $550 
million for the Restoration and Enhancement (R&E) program, a 
substantial increase over both the fiscal year 19 enacted level of $5 
million and the fiscal year 20 authorized level of $22 million.
    However, these funds are provided for a program which the budget 
proposes to substantially change. The budget alters the program, 
stating grants are ``to support restructuring long-distance routes'' 
and ``are not limited to the initiation, restoration, or enhancement of 
intercity rail passenger transportation.''
    The budget plans to use this reformed R&E program to enact the 
above changes to Amtrak's national network. Congress created and funded 
the Restoration and Enhancement program specifically to support the 
initiation, restoration, or enhancement of intercity passenger rail 
service. The clear, bipartisan, purpose was to increase service and 
ridership.
    The Administration proposes to instead use this program to break up 
Amtrak's national network, reducing service and likely limiting 
ridership. Meanwhile, support for the existing R&E program is 
demonstrated by both Congress's continued funding and by applications 
for funding from across the country.
    Do you support funding for the initiation, restoration, or 
enhancement of intercity rail passenger transportation? What would you 
tell local communities seeking support for new or expanded passenger 
rail service, who many no longer have that opportunity under the 
administration's proposal? How would the administration propose 
investing in the initiation, restoration, or enhancement of intercity 
rail passenger transportation should the administration's plan be 
enacted?
    Answer. The fiscal year 2020 President's Budget proposes to begin a 
collaborative process among the Department of Transportation, Amtrak, 
states, and local governments to restructure the current Long Distance 
network into a series of shorter-distance, high-performing corridors. 
The proposal does not consist solely of transitioning costs of the 
existing, antiquated Long Distance network to states. Rather, the 
intent is to rationalize the network to provide a modern and more 
relevant service to passengers, including better scheduled departures 
and arrivals, and new frequencies and markets served where warranted. 
The existing routes currently serve many promising city pairs and 
markets that could flourish and result in significantly improved 
service if restructured. We look forward to working with local 
communities and states to invest in an improved network that meets 
their transportation needs.
    The fiscal year 2020 President's Budget requests $330 million for 
the Consolidated Rail Infrastructure and Safety Improvements Program. 
These funds would be available to eligible applicants to support the 
capital and equipment costs needed for potential new or expanded 
services.
                              build grants
    Question. Better Utilizing Investments to Leverage Development 
(BUILD) grants (formerly TIGER)--The administration proposes $1 billion 
for the BUILD grant program in fiscal year 20. This is a welcome 
departure from previous budget proposals in which the administration 
sought to eliminate the program. Despite the administration targeting 
this program for elimination, Congress appropriated $500 million in 
fiscal year 17, $1.5 billion in fiscal year 2018, and $900 million in 
fiscal year 2019. The budget also proposes changes to the program, 
relative to the fiscal year 2019 appropriations.
    The most recent round of awards continues a pattern in which the 
program is oriented away from its purpose of funding projects which are 
multi-modal, transformative, of national significance, and which are 
otherwise difficult to fund. This limits the usefulness of the program 
for local communities and our country.
    The BUILD program was created to support multi-modal and transit-
oriented projects, projects of national significance, and projects that 
cut across administrative boundaries within the Department of 
Transportation and that are therefore not easily accomplished through 
other funding programs, and I was disappointed by the apparent lack of 
commitment to these types of projects. Thank you for the robust funding 
proposed for the BUILD program in fiscal year 2020.
    While I appreciate the funding support, how will the 
administration's budget ensure the program selects projects which are 
multi-modal, transformative, of national significance, and which are 
otherwise difficult to fund through formulas and other funding sources?
    Answer. The Department continues to support broad selection 
criteria in all rounds of the BUILD discretionary grant program to help 
award innovative and transformative projects, including multimodal 
projects. The Consolidated Appropriations Act, 2019 provided $900 
million to be awarded on a ``competitive basis for projects that will 
have a significant local or regional impact''. The award size is 
limited to no more than $25 million per project.
    Because the Department believes that local communities best know 
their infrastructure needs, the fiscal year 2020 President's Budget 
included $1 billion for critical transportation projects, such as those 
identified by local communities, that will have a significant impact on 
the Nation, a metropolitan area, or a region. The merit-based, 
competitive nature of the BUILD program allows the Department to award 
projects that best align with selection criteria and positively impact 
the communities in which they are located.
    Question. Do you agree that projects in urban areas can create 
benefits for the surrounding community and region, including rural 
areas? In recent rounds of awards, the administration has selected 
projects located predominantly in rural areas.
    Answer. The interconnected nature of the nation's transportation 
networks require investment in both rural and urban areas. The 
Department takes measures to ensure an appropriate balance in 
addressing the needs of urban and rural areas, and is especially 
committed to addressing the unmet transportation infrastructure needs 
of rural communities.
    For the fiscal year 2019 BUILD Appropriations, Congress stipulated 
not more than 50 percent of BUILD funds can be awarded to projects in 
rural and urban areas, respectively. The Department fully intends to 
meet that Congressional requirement for equitable distribution of funds 
for urban and rural projects during this round of BUILD competition.
                        infrastructure proposal
    Question. In addition to the fiscal year 20 budget, the 
administration released a fact sheet outlining a new infrastructure 
initiative. The plan, about which there are few details, calls for a 
long-term surface transportation authorization and provides $200 
billion to leverage $1 trillion in state and local investment.
    Can you provide more detail about how the administration would 
propose using the $200 billion allocated for infrastructure? What does 
the administration propose as a source for the $200 billion?
    Answer. The 2020 Budget called upon the Congress to pass 
legislation that generates at least $1 trillion in infrastructure 
investment. The Budget supports achieving this goal by 1) committing to 
working with the Congress on a long-term surface transportation 
reauthorization to provide our State, local, and private partners the 
certainty they need to effectively plan and deliver projects and 2) 
providing $200 billion in additional funding for other infrastructure 
priorities to be allocated in partnership with the Congress toward 
sectors and projects that address the most important needs and confer 
the largest benefits to the American people. The President has also 
indicated that a portion of the funding should promote visionary 
projects and technologies to strengthen our economic competitiveness, 
including 5G wireless communications, rural broadband, advanced 
manufacturing, and artificial intelligence. The Administration is 
committed to working with the Congress on sources for these 
investments.
    Question. In fiscal year 2019, the administration proposed an 
infrastructure package of $200 billion which it said would leverage 
$1.5 trillion. This year, the administration has again proposed $200 
billion which it now says will only leverage $1 trillion.
    Why will the Federal investment leverage $500 million fewer local 
and private dollars in fiscal year 2020?
    Answer. The fiscal year 2020 Budget's infrastructure plan would 
generate at least $1 trillion in infrastructure investment. The Budget 
also commits to working with the Congress on the details of the plan, 
and those details would drive the amount of non-Federal investment.
                   federally funded highway programs
    Question. Now that the Eisenhower Interstate system is complete, is 
it time to revisit our highway funding programs? Are the current 
formulas sufficient for ensuring enough resources to maintain a state 
of good repair for the existing system? Do the formulas provide enough 
guarantee that states and localities will invest in maintenance as 
opposed to expansion?
    Answer. The Department supports the transition to a performance 
based approach to the Federal-aid highway program begun by MAP-21 and 
continued through the FAST Act. Strengthening the relationship between 
Federal funding and transportation outcomes related to safety, 
congestion, and state of good repair is the best approach to ensuring 
scarce Federal resources are devoted to the most appropriate uses on a 
state-by-state basis.
    Question. Too often, maintenance of existing infrastructure takes a 
backseat to constructing new highway projects. Limited infrastructure 
dollars can be put to better use investing in maintenance and improving 
existing infrastructure to maximize mobility and access to jobs. Our 
national transportation program does not emphasize state of repair work 
before adding new infrastructure. Nor does it make shrinking the system 
or any particular road or bridge easy.
    How can the national program better support states and local 
agencies as they struggle with the challenge of maintaining a large 
system?
    Answer. Completing the transition to a performance based program 
will significantly enhance the ability for state and local agencies to 
respond to their system's needs in the manner most appropriate to their 
circumstance.
    Question. What policies would you advance to implement a ``fix-it 
first'' process?
    Answer. Implementation of a performance-based approach, with a 
focus on state of good repair, is already underway across the Federal-
aid highway program. Setting targets and tracking performance provides 
States tools to improve the condition of their assets.
    Question. Do you believe P3's can act as a substitute for real 
Federal funding for infrastructure?
    Answer. Public Private Partnerships are valuable tools in the 
toolbox for communities seeking alternative approaches to procurement 
and project delivery. They are not intended to completely replace other 
funding sources from any level, whether Federal, state, or local.
    Projects which are financed using revenue collected directly from 
users, whether delivered using a public-private-partnership or by the 
public sector alone, can help reduce the need for Federal funding.
    Question. Are P3 projects a realistic funding sources in rural 
communities?
    Answer. Public private partnerships are not a one-size-fits-all 
approach for any community, they represent a tool in the toolbox. Local 
officials are the best judges of what their communities want and need 
for both rural and urban areas.
    Unlike transportation projects in congested urban areas, projects 
with lower levels of use due to their location in low-population areas 
are less likely to be able to finance themselves using revenue 
collected directly from users. However, certain approaches, such as 
combining availability payments with bridge bundling initiatives have 
proven effective at supporting infrastructure deployment in the United 
States.

                          SUBCOMMITTEE RECESS

    Senator Collins. This hearing is now adjourned.
    [Whereupon, at 11:58 a.m., Wednesday, March 27, the 
subcommittee was recessed, to reconvene at a time subject to 
the call of the Chair.]
</pre></body></html>
